V
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 18-1865

UNITED STATES OF AMERICA
v.
OMAR SIERRE FOLK,
Appellant

(D.C. No. 1-1 l-cr-00292-001)

SUR PETITION FOR REHEARING

Present: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR, SHWARTZ, KRAUSE, RESTREPO, BIB AS,
PORTER, MATEY and PHIPPS. Circuit Judges

The petition for rehearing filed by appellant in the above-entitled case having
been submitted to the judges who participated in the decision of this Court and to all the
other available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the

A

V

circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.
BY THE COURT,
s/ David J. Porter
Circuit Judge
Date: May 7, 2020
PDB/cc: Omar Sierre Folk
Michael A. Consiglio, Esq.

A

Case: 18-1865

Document: 118-1

Page: 1

Date Filed: 04/03/2020

UNITED STATES COURT OF
APPEALS
FOR THE THIRD CIRCUIT

No. 18-1865

UNITED STATES OF
AMERICA
v.

OMAR SIERRE FOLK,
Appellant

On Appeal from the United States
District Court
for the Middle District of
Pennsylvania
(D.C.No. 1-1 l-cr-00292-001)
District Judge: Honorable John E.
Jones, III

Submitted Under Third Circuit
L.A.R. 34.1(a):
January 14, 2020
Before: HARDIMAN, PORTER,
and PHIPPS,
Circuit Judges.

JUDGMENT

This cause came to be heard on the record of the United
States District Court for the Middle District of Pennsylvania
and was submitted on January 14, 2020. On consideration
whereof, it is now ORDERED and ADJUDGED by this Court

J

Case: 18-1865

Document: 118-1

Page: 2

Date Filed: 04/03/2020

that the District Court’s order dated February 16, 2018, is
hereby AFFIRMED. All of the above in accordance with the
Opinion of this Court. No costs shall be taxed.
ATTEST:
s/ Patricia S. Dodszuweit
Clerk
Dated: April 3, 2020

i

Case: 18-1865

Document: 117

Page: 1

Date Filed: 04/03/2020

4

PRECEDENTIAL
UNITED STATES COURT OF
APPEALS
FOR THE THIRD CIRCUIT

No. 18-1865

UNITED STATES OF
AMERICA
v.
OMAR SIERRE FOLK,
Appellant

On Appeal from the United States
District Court
for the Middle District of
Pennsylvania
(D.C.No. l-ll-cr-00292-001)
District Judge: Honorable John E.
Jones, III

Submitted Under Third Circuit
L.A.R. 34.1(a):
January 14, 2020
Before: HARDIMAN, PORTER,
and PHIPPS,
Circuit Judges.
(Filed: April 3, 2020)

Philip Gelso
Law Offices of Philip Gelso
63 Pierce Street
Kingston, PA 18704

Appx. HI

Case: 18-1865

Document: 117

Page: 2

Date Filed: 04/03/2020
I

Counsel for Appellant Omar Sierre Folk
David J. Freed, United States Attorney
Eric Pfisterer, Deputy Chief, Criminal Division
(Harrisburg)
Michael A. Consiglio
Kate L. Mershimer
Office of the United States Attorney
228 Walnut Street, P.O. Box 11754
220 Federal Building and Courthouse
Harrisburg, PA 1710 8
Counsel for Appellee United States ofAmerica

OPINION OF THE COURT

PORTER, Circuit Judge
Omar Sierre Folk appeals the District Court’s order
denying his Rule 59(e) motion to alter or amend the judgment
denying his motion under 28 U.S.C. § 2255. He argues that the
District Court enhanced his sentence based on an incorrect
career-offender designation under the advisory Sentencing
Guidelines. He also moves to expand his certificate of
appealability. Because Folk’s claim is not cognizable under 28
U.S.C. § 2255, we will affirm the District Court’s order and
deny his motion to expand the certificate of appealability.
I
Folk was convicted by a federal jury of one count of
distribution and possession with intent to distribute cocaine
and cocaine base, in violation of 21 U.S.C. § 841; two counts
of using a firearm to further a drug trafficking offense, in
violation of 18 U.S.C. § 924(c); and one count of felon in
possession of a firearm, in violation of 18 U.S.C. § 922(g)(1).
Before sentencing, the Presentence Investigation Report
(“PSR”) deemed Folk a career offender under U.S.S.G.
2

Case: 18-1865

Document: 117

Page: 3

Date Filed: 04/03/2020

§ 4B1.1 because he had at least two prior felony convictions
for “crimes of violence.”1 As a result, the PSR recommended
enhancing Folk’s Guidelines range from a sentence between
384 and 465 months’ imprisonment to a sentence between 420
months and life imprisonment.
At sentencing, the District Court discussed Folk’s four
previous convictions with the parties and whether the
convictions constituted crimes of violence. The convictions
included two robberies in 2001, simple assault in 2003, and
terroristic threats in 2003. The District Court adopted the
PSR’s recommended Guidelines range but sentenced Folk to
264 months’ imprisonment—120 months less than the bottom
of the unenhanced Guidelines range and 156 months less than
the bottom of the enhanced Guidelines range. Folk appealed
his conviction, but we affirmed. See United States v. Folk, 577
F. App’x 106 (3d Cir. 2014). Importantly, Folk did not
challenge his sentence or his career-offender designation.
Then, the Federal Public Defender filed a timely § 2255
motion on Folk’s behalf. In his § 2255 motion, Folk argued that
his career-offender designation was invalid because Johnson v.
United States, 135 S. Ct. 2551 (2015), rendered §4B1.2(a)
void for vagueness. Folk decided to proceed pro se and filed
several motions to amend his § 2255 motion. The District
Court ultimately denied Folk’s § 2255 motion.

v..

Finally, Folk filed a notice of appeal and a motion to
alter or amend the judgment under Federal Rule of Civil
Procedure 59(e). We stayed his appeal pending the District
Court’s resolution of the Rule 59(e) motion. Folk’s Rule 59(e)
motion argued that his robbery, simple assault, and terroristic
threats convictions do not constitute crimes of violence, so the
District Court erroneously designated him as a career offender.
i

U.S.S.G. § 4Bl.l(a) (2012) provides that “[a] defendant is a
career offender if . . . [he] has at least two prior felony
convictions of either a crime of violence or a controlled
substance offense.” A “crime of violence” is an offense
punishable by more than one year of imprisonment that
involves “the use, attempted use, or threatened use of physical
force against the person of another,” or is an otherwise
specified offense. U.S.S.G. § 4B 1.2(a) (2012).
3

Aff*

45

Case: 18-1865

Document: 117

Page: 4

Date Filed: 04/03/2020

The District Court denied the motion. Folk then filed an
amended notice of appeal.
Folk’s certificate of appealability identified two issues
for review: (1) whether an erroneous career-offender
designation is cognizable under § 2255; and (2) whether he
was correctly designated as a career offender.2
After we issued the certificate of appealability, Folk
moved to expand the certificate of appealability and to
supplement his appeal. Folk argued that his conviction for
possession of 280 grams of cocaine is invalid under United
States v. Rowe, 919 F.3d 752, 759 (3d Cir. 2019) (holding that
separate acts of distribution of controlled substances are
distinct offenses rather than a continuing crime). The motion
to expand the certificate of appealability was referred to this
panel and remains pending.
II
The District Court had subject-matter jurisdiction over
Folk’s § 2255 motion under 28 U.S.C. §§ 1331 and 2255. We
have appellate jurisdiction under 28 U.S.C. §§ 1291 and
2253(a). We review legal conclusions de novo and factual
findings for clear error. United States v. Doe, 810 F.3d 132,
142 (3d Cir. 2015).
Ill
The first issue we must address is whether a challenge
to an incorrect career-offender designation under the advisory
Sentencing Guidelines is cognizable under § 2255. Folk says
that it is.3 We disagree.

2 The parties identified other issues in their briefs on appeal,
including an ineffective-assistance-of-counsel claim. But the
certificate of appealability designated only two issues for
review, and we need not consider uncertified issues. See 3d Cir.
L.A.R. 22.1(b)-(c); see also 28 U.S.C. § 2253(c).
3 For this analysis, we assume without deciding that the District
Court incorrectly designated Folk as a career offender.

ri'

4

ftps*' W

Case: 18-1865

Document: 117

Page: 5

Date Filed: 04/03/2020

A
Under § 2255, a federal prisoner may move to vacate,
set aside, or correct his feder al sentence if: (1) “the sentence
was imposed in violation of the Constitution or laws of the
United States”; (2) the court lacked “jurisdiction to impose”
the sentence; (3) the sentence exceeded “the maximum
authorized by law”; or (4) the sentence is “otherwise subject to
collateral attack[.]” 28 U.S.C. § 2255(a).
The statute’s language “is somewhat lacking in
precision” but “afford[s] federal prisoners a remedy identical
in scope to federal habeas corpus [under 28 U.S.C. § 2254].”
Davis v. United States, 417U.S. 333, 343 (1974). The scope of
relief does not reach “every asserted error of law.” Id. at 346.
Rather, § 2255 provides relief for jurisdictional and
constitutional claims, as well as for certain nonconstitutional
claims.
Folk’s career-offender Guideline claim does not satisfy
the first three bases for § 2255 relief. He does not assert that
his sentence violates the Constitution or federal law. Folk does
not argue that the District Court lacked jurisdiction to impose
the sentence. Nor can he argue that his sentence exceeds the
maximum authorized by law because each of his federal
convictions permitted a maximum of life imprisonment. See 21
U.S.C. § 841(b); 18 U.S.C. § 924(c)(l)(A)(i) (permitting any
sentence exceeding five years); 18 U.S.C. § 924(e)(1)
(requiring a sentence to exceed 15 years). So, to justify
receiving § 2255 relief, Folk’s nonconstitutional claim—based
on an incorrect career-offender enhancement—must
“otherwise subject” his sentence to collateral attack. 28 U.S.C.
§ 2255(a); see Bullard v. United States, 937 F.3d 654, 658 (6th
Cir. 2019).
Nonconstitutional claims that otherwise subject a
sentence to collateral attack fall between two poles. See Doe,
810F.3datl55.At one end are plainly cognizable claims, such
as a federal prisoner’s claims that he is “either actually
innocent of his crime” or that his “prior conviction used to
enhance his sentence has been vacated[.]” Spencer v. United
States, 773 F.3d 1132, 1139 (11th Cir. 2014) (en banc)
(referencing Davis, 417 U.S. at 346—47 and Johnson v. United
States, 544 U.S. 295, 303 (2005)); see also Doe, 810 F.3d at
5

HS

Case: 18-1865

Document: 117

Page: 6

Date Filed: 04/03/2020

155 (citing Davis, 417 U.S. at 343). On the other end are
plainly noncognizable claims, which include technical
procedural violations that do not prejudice a defendant. See,
e.g., Peguero v. United States, 526 U.S. 23, 27-28 (1999)
(holding that a district court’s failure to notify a defendant of
his right to appeal was not cognizable when the defendant
knew of the right and was not prejudiced).
Supreme Court precedent recognizes that § 2255 may
remedy a nonconstitutional claim such as a flawed sentence in
two circumstances. See Doe, 810 F.3d at 155 (noting that Reed
v. Farley, 512 U.S. 339 (1994), explains how to fill the narrow
space “between [the] poles”). First, if a sentencing error
resulted in “an omission inconsistent with the rudimentary
demands of fair procedure.” United States v. Timmreck, 441
U.S. 780, 783 (1979) (citation omitted). Second, if a sentencing
error constitutes “a fundamental defect which inherently
results in a complete miscarriage of justice[.]” IdA
B
A misapplication of the career-offender Guideline is not
an omission inconsistent with the rudimentary demands of fair
procedure. Sentencing errors that qualify as “omission[s]
inconsistent with” fair procedure include procedural errors that
prejudice a defendant. Doe, 810 F.3d at 155 (quoting Reed, 512
U.S. at 348 (plurality opinion)). Ordinarily, the procedural
error is the failure “to give a defendant advice required by the
Federal Rules [of Criminal Procedure].” Peguero, 526 U.S. at
27-28 (holding that a district court’s failure to notify a
defendant of his right to appeal was not cognizable when the
4 Relying on the plurality opinion in Reed v. Farley, this Court
suggested that “aggravating circumstances” amount to a third
standalone basis for § 2255 relief for nonconstitutional claims.
See Doe, 810 F.3d at 155. The Supreme Court has not
“expressly adopted [the aggravating circumstances] exception
or defined its parameters.” Pethtel v. Ballard, 617 F.3d 299,
305 (4th Cir. 2010). But we need not resolve that tension here
because Folk does not argue that aggravating circumstances
exist. Nor would his claim meet the requirements for relief
under an aggravating-circumstances theory. See, e.g, Reed,
512 U.S. at 357 (Scalia, J. concurring).
6

App*. %

Case: 18-1865

Document: 117' '• Page: 7

Date Filed: 04/03/2020

defendant knew of the right and was not prejudiced by the
failure); see also Timmreck, 441 U.S. at 784-85 (declining to
find cognizable a procedural error under Federal Rule of
Criminal Procedure 11 absent aggravating circumstances); Hill
v. United States, 368 U.S. 424, 428 (1962) (holding that a
district court’s failure to notify a defendant of his right to speak
at his sentencing did not prejudice him and was not a
cognizable claim under § 2255); cf. Reed, 512 U.S. at 349-51
(plurality opinion) (holding that, in a § 2254 proceeding, a state
court’s failure to observe speedy trial requirements was not
cognizable when the failure did not prejudice the defendant).
Peguero, Timmreck, and Hill each involved a district
court’s failure to notify a defendant of certain rights under the
Federal Rules of Criminal Procedure. Reed involved a district
court’s failure to follow certain procedural timing rules. Folk
does not complain that the District Court failed to notify him
of his rights under the Federal Rules of Criminal Procedure.
Nor does he assert any other procedural error. His case is
therefore not analogous to Peguero, Hill, and Timmreck, which
recognized that a prejudicial procedural violation may be
cognizable under § 2255.5
In Doe, a panel of this Court held that a misapplication
of the career-offender designation under the mandatory
Guidelines was cognizable. Doe's holding relied, in part, on
Peguero. This Court said that “the incorrect computation of a
mandatory Guidelines range” based on an erroneous careeroffender designation “is at least as serious as the error
5 A miscalculation of a Guidelines range is a procedural error.
See, e.g, Gall v. United States, 552 U.S. 38, 51 (2007). The
District Court’s designation of Folk as a career offender—a
substantive decision—increased Folk’s Guidelines range. See,
e.g., Doe, 810 F.3d at 159 (noting that a “substantive error”—
like a career-offender designation—results in “more time in
prison”); see also Narvaez v. United States, 674 F.3d 621, 627
n.ll (7th Cir. 2011) (“The misapplication of the careeroffender status—which increased Mr. Narvaez’s sentencing
range—is certainly a substantive error.”); United States v.
Jayyousi, 657 F.3d 1085,1116-17 (11th Cir. 2011) (noting that
a sentence was substantively unreasonable because it failed to
account for a defendant’s career-offender status).
7 ■

*•

ftW* N7

Case: 18-1865

Document: 117

Page: 8

Date Filed: 04/03/2020

discussed in Peguero and thus should also be cognizable
[when] the mistake prejudices the defendant.” Doe, 810 F.3d
at 159.
Doe involved a substantive error. Peguero (and its
predecessor cases at the Supreme Court) involved procedural
errors that potentially caused prejudice. Doe thus blended the
two avenues of § 2255 relief. Relying on Doe, Folk argues that
the District Court’s allegedly erroneous career-offender
designation prejudiced him. For example, Folk parrots Doe and
argues that the alleged “substantive error, like more time in
prison, is doubtless more serious than procedural error, like
failure by the [sic] court to advise someone of appellate
rights[.]” Appellant’s Reply Br. 3 (quoting Doe, 810 F.3d at
159).
But the Supreme Court has never conducted a prejudice
inquiry when deciding whether a substantive nonconstitutional
error—rather than a procedural error—is cognizable under
§ 2255. We decline Folk’s invitation to do so here.6 Because
Folk does not complain of a prejudicial procedural error, his
claim is not cognizable under § 2255 as “an omission

6 Even if we analyzed the prejudice to Folk as Doe suggested,
Folk still would not prevail. Folk notes that the career-offender
designation increased his advisory Guidelines range by one
level. His resulting range was 420 months to life imprisonment.
Without the increase, his Guidelines range would have been
384 to 465 months’ imprisonment. He argues that he therefore
“suffered prejudice because he was sentenced under an
incorrect Guidelines range regardless of whether the ultimate
sentence falls within the correct Guidelinefs] range upon
remand.” Appellant’s Reply Br. 4. But the District Court
sentenced Folk to 264 months’ imprisonment—ten years
below the bottom end of the Guidelines range without the
career-offender enhancement. Folk is hard pressed to show that
his below-the-Guidelines-range sentence constitutes a
complete miscarriage of justice. See, e.g, United States v.
Hoskins, 905 F.3d 97, 104-05 (2d Cir. 2018) (finding that a
federal prisoner lacked a cognizable § 2255 claim for his
within-Guidelines sentence).
8

ftp p*. H

Case: 18-1865

Document: 117

Page: 9

Date Filed: 04/03/2020

inconsistent with the rudimentary demands of fair procedure.”
Reed, 512 U.S. at 348 (plurality opinion).
C
In Doe, we held that an incorrect career-offender
designation under the mandatory Guidelines is a fundamental
defect inherently resulting in a complete miscarriage ofjustice
cognizable under § 2255. See 810 F.3d at 160. But United
States v. Booker, 543 U.S. 220, 246 (2005), made the
Guidelines advisory. We have not yet addressed whether an
incorrect career-offender designation under the advisory
Guidelines is cognizable under § 2255.
Nearly every other circuit court of appeals has held or
suggested that such a claim is not cognizable.7 Today, we join

7 See Snider, 908 F.3d at 189 (holding that the defendant’s
nonconstitutional “challenge to his advisory guidelines range
suffers from a great defect: it is not cognizable under § 2255”);
United States v. Foote, 784 F.3d 931, 940 (4th Cir. 2015)
(same); Spencer, 773 F.3d at 1144 (en banc) (same); Hawkins
v. United States, 706 F.3d 820, 823-24 (7th Cir. 2013), opinion
supplemented on denial of reh’g, 724 F.3d 915 (same); Sun
Bear v. United States, 644 F.3d 700, 704-05 (8th Cir. 2011)
(en banc) (holding that because applying the career-offender
Guideline is an ordinary question of Guidelines interpretation,
the error is not a fundamental defect resulting in a complete
miscarriage of justice and is not cognizable under § 2255).
The Fifth Circuit has held that “[§] 2255 motions may
raise only constitutional errors and other injuries that could not
have been raised on direct appeal that will result in a
miscarriage of justice if left unaddressed.” United States v.
Williamson, 183 F.3d 458, 462 (5th Cir. 1999) (emphasis
added) (citations omitted). Because “[mjisapplications of the
Sentencing Guidelines fall into neither category . . . [they] are
not cognizable in § 2255 motions.” Id. Because of this blanket
prohibition, the Fifth Circuit has not expansively delineated the
rule, unlike other circuits.
Two other circuits have faced the issue. The Second
Circuit avoided drawing a “categorical conclusion,” but
identified “the advisory nature of the challenged career
offender Guidelines as one factor, among others,” that
9

Case: 18-1865

Document: 117

Page: 10

Date Filed: 04/03/2020

our sister circuits and hold that an incorrect career-offender
enhancement under the advisory guidelines is not cognizable
under § 2255 because it is not a fundamental defect that
inherently results in a complete miscarriage ofjustice.
Our conclusion is buttressed by four rationales: (1) the
lawfulness of a sentence within the statutory limit; (2) the
advisory nature of the Guidelines; (3) an interest in finality;
and (4) a concern about workable standards.
1
Even when based on an incorrect advisory careeroffender enhancement, a sentence within the statutory
maximum is lawful. See Spencer, 773F.3datll38 (noting that
a sentence is lawful if it is “less than the statutory maximum
sentence prescribed by Congress” (citing United States v.
Addonizio, 442 U.S. 178, 186-87 (1979)); cf. United States v.
Payano, 930 F.3d 186, 193 (3d Cir. 2019) (explaining that
statutory ranges “set the floor and the ceiling within which a
district court must sentence, thereby . .. limit[ing] the extent to
which a district court may permissibly stray from the
Guidelines range” (citations omitted)). And a lawful sentence
is not a complete miscarriage of justice. See Addonizio, 442
U.S. at 186-87. So an incorrect career-offender designation
that results in a sentence within the statutory maximum is not
a fundamental defect inherently resulting in a complete
miscarriage ofjustice and cannot be cognizable under § 2255.
District courts possess “broad discretion in imposing a
sentence within a statutory range.” Booker, 543 U.S. at 233.
When sentencing defendants, district courts must consider the
factors in 18 U.S.C. § 3553(a), which includes the kinds of

precludes showing that a below- or within-Guidelines sentence
is a “complete miscarriage ofjustice.” Hoskins, 905 F.3d at 104
n.7. The First Circuit avoided the issue entirely by deciding a
case on alternative grounds. See Cuevas v. United States, 778
F.3d 267, 272 (1st Cir. 2015) (declining to address “the
cognizability of a claim, like the one at issue in [Folk’s case],
that the sentencing court legally erred in applying the
Guidelines”).
10

/4-ppx. So

Case: 18-1865

Document: 117

Page: 11

Date Filed: 04/03/2020

sentences and the sentencing range suggested for certain
violations. See 18 U.S.C. § 3553(a)(4).
So long as a district court considers the § 3553(a)
factors and imposes a sentence within the statutory limits for
an offense, the criminal proceeding will not be “infected with
any error of fact or law of the ‘fundamental’ character.” See
Addonizio, 442 U.S. at 186. Such a sentence is lawful and
cannot be a complete miscarriage of justice.
Even if a sentencing error affects “the way in which the
[sentencing] court’s judgment and sentence [will] be
performed,” it does not “affect the lawfulness of the judgment
itself—then or now.” Foote, 784 F.3d at 937 (quoting
Addonizio, 442 U.S. at 187); see also Hawkins, 706 F.3d at
821—22, 824, opinion supplemented on denial of reh’g, 724
F.3d 915 (noting that a “sentence that is well below the ceiling
imposed by Congress” is not a complete miscarriage ofjustice
even if the imposed sentence were “far above the [Guidelines
range that would have been applicable had the career offender
guideline not been in play”).
For example, in Addonizio, the district court sentenced
the defendant under the belief that the defendant would be
eligible for parole after serving one-third of his sentence. 442
U.S. at 186. After the defendant was sentenced, the parole
commission changed its rules, which subjected the defendant
to more time in prison before he would be eligible for parole.
The district court’s incorrect assumption did not infect the
proceeding “with any error of fact or law of the ‘fundamental’
character” and did not merit § 2255 relief. Id.
Based on Addonizio, other circuit courts have concluded
that a sentencing error is not a fundamental defect requiring
§ 2255 relief when a prisoner is sentenced below the statutory
maximum. See Foote, 784 F.3d at 937; see also Spencer, 773
F.3d at 1138 (citing Addonizio, 442 U.S. at 186-87) (noting
that a sentence “less than the statutory maximum sentence
prescribed by Congress” is lawful, and thus not a fundamental
defect); Hawkins, 706 F.3d at 822, 824; Sun Bear, 644 F.3d at
705; cf Snider, 908 F.3d at 191 (citing Addonizio, 442 U.S. at
187) (noting that the defendant’s corrected sentence would fall
within the same Guidelines range). We agree.
11

Apf»< 51

Case: 18-1865

Document: 117

Page: 12

Date Filed: 04/03/2020

2

Because the Guidelines are advisory and merely one
factor considered within a sentencing court’s discretion, an
incorrect career-offender enhancement is not a fundamental
defect inherently resulting in a complete miscarriage of justice.
First, oddities may arise if a court “declare[s] that a
fundamental defect or a complete miscarriage of justice has
occurred in a situation in which” a defendant could receive the
same sentence “under an advisory Guidelines scheme requiring
individualized analysis of the sentencing factors set forth in.. .
§ 3553(a).” Foote, 784 F.3d at 941. Even if a court provided
§ 2255 relief for an erroneous career-offender designation, “the
district court could [still] impose the same sentence again.”
Spencer, 773 F.3d at 1140 (collecting cases); see also Sun
Bear, 644 F.3d at 705 (noting that the same sentence could be
reimposed); Hawkins, 706 F.3d at 824-25 (acknowledging that
the district court might have imposed a lower sentence but did
not have to do so).
Second, the advisory Guidelines merely inform “the
exercise of a [sentencing] court’s discretion in choosing an
appropriate sentence within the statutory range.” Beckles v.
United States, 137 S. Ct. 886, 892 (2017). It is true that the
advisory Guidelines are the “starting point and the initial
benchmark for sentencing.” Id. at 894 (quoting Gall, 552 U.S.
at 49 (internal quotation marks omitted)). But “the advisory
Guidelines do not fix the permissible range of sentences.” Id.
at 892. “[A] sentencing court may no longer rely exclusively
on the Guidelines range; rather, the court must make an
individualized assessment based on the facts presented and the
other statutory factors.” Id. at 894 (quoting Gall, 552 U.S. at
49 (internal quotation marks omitted)).
Holding otherwise would transform the “advisory”
Guidelines into more than a discretionary guide and undermine
Booker. The Guidelines lack legal force and are not
“tantamount to the laws of Congress” because they are
advisory and therefore not binding on a district court. Spencer,
111 F.3d at 1142 (citing Mistretta v. United States, 488 U.S.
361, 395 (1989)); see also Pepper v. United States, 562 U.S.
476, 501 (2011) (noting that “a district court may in
appropriate cases impose a non-Guidelines sentence based on
12

Case: 18-1865

Document: 117

Page: 13

Date Filed: 04/03/2020

a disagreement with the [Sentencing] Commission’s views”).
So, a Guidelines error is not a fundamental defect like a
“violation of a statute or constitutional provision” and does not
inherently result in a complete miscarriage of justice. See
Foote, 784 F.3d at 942.
3

An interest in finality cautions against finding that an
erroneous career-offender enhancement is a fundamental
defect inherently resulting in a complete miscarriage of justice.
Section 2255 does not provide relief for “every asserted error
of law.” Davis, 417 U.S. at 346. It strikes a balance “between
the interest in finality and the injustice of a possibly mistaken
sentence,” such as one imposed after an incorrect careeroffender designation. Hawkins, 706 F.3d at 825. Allowing
collateral challenges based on sentencing errors under the
advisory Guidelines “would deal a wide-ranging blow to the
judicial system’s interest in finality.” Foote, 784 F.3d at 943
(citing Addonizio, 442 U.S. at 184). Given a district court’s
discretion and the advisory nature of the Guidelines, an
incorrect career-offender designation is not the type of defect
that supports undermining finality. See Spencer, 111 F.3d at
1144; Foote, 784 F.3d at 943.
4

There is no manageable limit to the types of sentencing
errors that would be cognizable under § 2255 if an incorrect
career-offender enhancement were found to be cognizable.
“[I]t is hard to fathom what the dividing line would be between
a fundamental defect and mere error” when applying the
advisory Guidelines. Foote, 784 F.3d at 943. Courts may
struggle “to catalog the subset of miscalculations of advisory
[Guidelines that are miscarriages of justice that can be
corrected in [federal] postconviction proceedings.” Hawkins,
706 F.3d at 825.
Perhaps we could establish a rule that an incorrect
career-offender enhancement qualifies for § 2255 relief
because it is more serious than other sentencing errors. After
all, the miscalculation increases the Guidelines range. But
nearly all Guidelines errors will affect the range. See Spencer,
773 F.3d at 1142 (citation omitted). On one hand, limiting
13

' PtffM 5 s

Case: 18-1865

Document: 117

Page: 14

Date Filed: 04/03/2020

§ 2255 relief only to misapplications of the career-offender
designation would be underinclusive. See Foote, 784 F.3d at
943. But, if any sentencing error is cognizable on collateral
review, then the rule would be overinclusive and disrupt
finality. Id.; see also Hawkins, 706 F.3d at 825 (noting that the
defendant’s argument requires “all [sentencing] errors (except,
presumably, harmless ones) [to be] miscarriages of justice”).
The breadth of such a rule would make the limited relief
offered by § 2255 a boundless opportunity for criminal
defendants to re-challenge their sentences.
D
Folk argues that this Court’s decision in Doe and
Supreme Court opinions discussing the advisory Guidelines
require a different outcome. We disagree.
In Doe, we held that an erroneous career-offender
designation under the mandatory Guidelines is cognizable
under §2255. 810 F.3d at 160. We reasoned that the
“misclassification of the defendant as a career offender [was]
at least as serious as the error discussed in Peguero” and
“should also be cognizable [when] the mistake prejudices the
defendant.” Id. at 159. When discussing prejudice to the
defendant, Doe noted that the career-offender status applies to
“a subgroup of defendants ... that traditionally has been
treated very differently from other offenders.” Id. (internal
quotation mark and citation omitted). Doe then concluded that
the “misapplication of the mandatory career-offender
Guideline, when such a misapplication prejudices the
[defendant, results in a sentence substantively not authorized
by law and is therefore subject to attack on collateral review.”
Id. at 160.
To reach the conclusion, this Court noted that
“sentencing decisions are anchored by the Guidelines” and
even the advisory Guidelines “exert controlling influence on
the sentence that the [sentencing] court will impose.” Id.
(quoting Peugh v. United States, 569 U.S. 530, 541, 545
(2013)). We emphasized that the mandatory Guidelines carry
“even greater force.” Id. (citing Booker, 543 U.S. at 234). Doe
also rejected the suggestion that a sentence within a statutory
limit that violates the mandatory Guidelines is lawful and thus
14

Case: 18-1865

Document: 117

Page: 15

Date Filed: 04/03/2020

cannot be challenged under § 2255. Id. We stated that Peugh
and Booker rendered this conclusion “implausible.” Id.
Folk adopts Doe's approach and relies on Peugh and
Molina-Martinez v. United States, 136 S. Ct. 1338 (2016), to
argue that Doe's holding applies to the advisory Guidelines.
Folk emphasizes that Doe looked to “the actual world of
sentencing.” Doe, 810 F.3d at 160. He argues that “the
determinative role the advisory Guidelines continue to hold at
federal sentencing, which is de facto similar to the role held by
the mandatory Guidelines” requires us to apply Doe here.
Appellant’s Br. 48. Folk’s argument is incorrect for several
reasons.
First, Doe's narrow holding specifically did not extend
to the advisory Guidelines. See 810 F.3d at 160 (“Our holding
is narrow, and we do not consider challenges to the advisory
Guidelines[.]”).
Second, the advisory Guidelines do not have “the force
and effect of laws.” See Booker, 543 U.S. at 234. They are but
one factor among many statutory factors that a district court
considers when exercising its discretion at sentencing. So a
district court may have multiple possible rationales supporting
a sentence. See United States v. Evans, 526 F.3d 155, 165 (4th
Cir. 2008). A sentencing court is free to deviate from a
Guidelines range within its discretion and after consideration
of the mandatory factors in § 3553(a). Indeed, the District
Court sentenced Folk to a term of imprisonment ten years
below the bottom end of the Guidelines range without the
career-offender enhancement.
What’s more, a sentencing court cannot presume the
reasonableness of a within-Guidelines sentence. See Nelson v.
United States, 555 U.S. 350, 352 (2009) (“The Guidelines are
not only not mandatory on sentencing courts; they are also not
to be presumed reasonable.” (emphasis in original)). In sum,
the Guidelines are a “system of guided discretion” that advises
sentencing courts in “choosfing] a sentence within [the]
statutory limits." Beckles, 137 S. Ct. at 894-95 (emphasis
added).
Third, Folk’s reliance on Peugh and Molina-Martinez is
misplaced. Both cases involved direct appeals and not
15

ftppn 55

Case: 18-1865

*

Document: 117

Page: 16

Date Filed: 04/03/2020

postconviction collateral attacks. See Spencer, 773 F.3d at
1144 (discussing Peugtis differences); see also MolinaMartinez, 136 S. Ct. at 1341. The standards employed in both
cases were “far less demanding than the standard” Folk “must
satisfy: that an error in the application of [the] advisory
[Guidelines ‘inherently results in a complete miscarriage of
justice.’” See Spencer, 773 F.3d at 1144 quoting Hill, 368 U.S.
at 428). In Peugh, the petitioner had to show that “a change in
law create[d] a significant risk of a higher sentence.” Hawkins,
724 F.3d at 917 (internal quotation marks omitted) (quoting
Peugh, 569 U.S. at 550). And in Molina-Martinez, the
petitioner had to demonstrate error creating a “reasonable
probability of a different outcome.” 136 S. Ct. at 1346. Finally,
Peugh involved a constitutional error—a violation of the Ex
Post Facto Clause. 569 U.S. at 538-39. Thus, the constitutional
error^-and not a nonconstitutional error misapplying a
Sentencing Guideline—“invalidated the sentence.” Hawkins,
724 F.3d at 916 (discussing Peugh).
■
Molina-Martinez established a mere “rebuttable
presumption of prejudice” on direct appeal when a sentencing
court miscalculates a Guidelines range, see Payano, 930 F.3d
at 193, which suggests that the error does not inherently result
in a complete miscarriage ofjustice.
Essentially, Folk contends that perhaps the District
Court would impose an even lower sentence on remand. And
because that possibility exists, Folk asserts that he is prejudiced
and the incorrect career-offender designation is a fundamental
defect inherently resulting in a complete miscarriage of justice.
But it is also possible that, after further review of the § 3553(a)
factors, the District Court would resentence Folk to the same
sentence—or perhaps a higher one. We will not speculate
about how a district court might resentence a criminal
defendant were we to grant collateral relief. Even if one
hypothetical judge might lower a sentence upon remand,
another judge may not. And the theoretical possibility of a
lower sentence does not demonstrate the type of prejudice
necessary to show that the criminal defendant’s current
sentence rests on a fundamental defect inherently resulting in
a complete miscarriage of justice. Cf Foote, 784 F.3d at 942;
Spencer, 773 F.3d at 1142-43; Hawkins, 724 F.3d at 917; Sun
Bear, 644 F.3d at 706.
16

L

Case: 18-1865

Document: 117

Page: 17

Date Filed: 04/03/2020

In sum, we hold that a nonconstitutional claim based on
an incorrect career-offender enhancement under the advisory
Guidelines is not cognizable under § 2255. Because Folk’s
career-offender claim is not cognizable, we need not address
whether his previous convictions are “crimes of violence”
under the career-offender Guideline.
IV
Folk has moved to expand the certificate of
appealability to include his argument under our decision in
Rowe, 919 F.3d 752. To resolve the motion, we must decide
whether (a) Folk’s motion to expand the certificate of
appealability is properly construed as a motion to amend his
§ 2255 motion or as a second or successive habeas motion, 8
and (b) Folk’s motion survives the resulting standard. Based
on our precedent, Folk’s motion to expand the certificate of
appealability is a second or successive habeas motion. We also
conclude that it fails to satisfy § 2255’s standard for second or
successive habeas motions. So we will deny Folk’s motion to
expand the certificate of appealability.
A
If a federal prisoner “has expended the ‘one full
opportunity to seek collateral review’” that § 2255 affords him,
then a later-filed motion to expand the scope of his § 2255
motion is a second or successive motion. Santarelli, 929 F.3d
at 105 (quoting Blystone v. Horn, 664 F.3d 397, 413 (3d Cir.
2011)). A federal prisoner has expended his opportunity for
collateral review if he “has exhausted all of [his] appellate
remedies with respect to [his] initial habeas petition.” Id. But
if a federal prisoner’s first § 2255 motion has not been
resolved, then a motion to expand the scope of his § 2255
motion is a motion to amend. Id. at 105-06.

8

Even though Folk filed his motion to expand the certificate of
appealability with this Court, we may still find that it is a
motion to amend. See, e.g., United States v. Santarelli, 929
F.3d 95, 106 (3d Cir. 2019) (construing a petition filed with
this Court during an appeal as a motion to amend).
17

57

Case: 18-1865

Document: 117

Page: 18

Date Filed: 04/03/2020

Thus, whether Folk’s motion to expand the certificate
of appealability is a motion to amend or a second or successive
§ 2255 motion depends on whether his incorrect careeroffender enhancement claims is cognizable. See id. It is not, so
Folk’s motion to expand the certificate of appealability is a
second or successive habeas petition because Folk has
“expended the ‘one full opportunity to seek collateral review’”
that § 2255 affords him. See id. (quoting Blystone, 664 F.3d at
413).9
B
Having determined that Folk’s motion to expand the
certificate of appealability is a second or successive § 2255
motion, we must now decide whether to certify it. We must
certify a federal prisoner’s second or successive § 2255 motion
if the motion contains: (1) “newly discovered evidence ...
sufficient to establish by clear and convincing evidence that no
reasonable factfinder would have found the movant guilty of
the offense;” or (2) “a new rule of constitutional law, made
retroactive to cases on collateral review by the Supreme Court,
that was previously unavailable.” 28 U.S.C. § 2255(h)(l)-(2).
Folk’s motion to expand the certificate of appealability
presents neither newly discovered evidence nor a new rule of
constitutional law, so we will not certify Folk’s motion as a
second or successive § 2255 motion. As Folk concedes, “Rowe
. . . is not ‘new evidence.’” See Appellant’s Reply to Gov’t’s
Resp. to Mot. By Appellant to Expand the Certificate of
Appealability and Permit Suppl. Briefing 5 n.3 (June 18,2019).
So he fails to satisfy § 2255(h)’s first prong. And Rowe was a
decision of this Court—and not the Supreme Court—so Folk
does not satisfy § 2255(h)’s second prong. Accordingly, we
will deny his motion.
V

Today we join every other circuit court of appeals in
deciding that an incorrect career-offender enhancement under
9 If we had decided to vacate or reverse the District Court, “the
district court would again be vested with jurisdiction to
consider” the motion to expand the certificate of appealability
as a motion to amend. Santarelli, 929 F.3d at 106.
18

Case: 18-1865

Document: 117

Page: 19

Date Filed: 04/03/2020

the advisory Guidelines does not present a cognizable claim
under 28 U.S.C. § 2255. Thus, we will affirm the District
Court’s order denying Folk’s § 2255 motion. We will also deny
Folk’s motion to expand the certificate of appealability
because he does not satisfy the standard for a second or
successive § 2255 motion.

19

5f

Case l:ll-cr-00292-JEJ Document 193 Filed 06/22/18 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA

1:11 -cr-292

UNITED STATES OF AMERICA

Hon. John E. Jones III

v.

OMAR SIERRE FOLK,
Defendant.
ORDER
AND NOW, this 22nd day of June, 2018, upon consideration of the various
motions (Docs. 179, 180, 183, 184, 186, 189, 190) filed by defendant Omar Sierre
Folk, and in accord with the accompanying memorandum, it is ORDERED that these
motions are DENIED. Folk is further ORDERED to provide written clarification as
to the meaning of his June 11, 2018 motion (Doc. 191), as well as the relief he seeks
in that motion.

s/ John E. Jones III
John E. Jones III
United States District Judge

65a

Ap?», %

Case l:ll-cr-00292-JEJ Document 192 Filed 06/22/18 Page 1 of 30

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA

1:1 l-cr-292

UNITED STATES OF AMERICA

Hon. John E. Jones III

v.

OMAR SIERRE FOLK,
Defendant.
MEMORANDUM
June 22, 2018

Defendant Omar Sierre Folk (“Folk”) has filed the following motions: a
motion (Doc. 179) for an evidentiary hearing; a motion (Doc. 180) to amend
judgment pursuant to Federal Rule of Civil Procedure 59(e) and for
reconsideration pursuant to Federal Rule of Civil Procedure 60(b)(1); a motion
(Doc. 183) to amend and supplement Folk’s previously filed motion for relief
under 28 U.S.C. § 2255 (“2255 motion”); another motion (Doc. 184) to amend
and supplement his 2255 motion; a motion (Doc. 186) “under status quo in light
of motion’s after Doc. 181 clerical error”; a motion (Doc. 189) for an order to
show cause; and a motion (Doc. 190) for judgment on the pleadings. For the
following reasons, these motions will be denied.

Appx. 6
35a

Case l:ll-cr-00292-JEJ Document 192 Filed 06/22/18 Page 2 of 30

I.

BACKGROUND l
We previously explained the complicated procedural history of this matter

in our February 16, 2018 memorandum, but to understand the instant motions the
background bears repeating:
On August 14, 2012, a jury convicted Folk of various drug
and firearms offenses. (Docs. 82, 84). Shortly thereafter, he
moved for a new trial or alternatively to vacate judgment. (Doc.
87). The court denied that post-trial motion. (Doc. 90).
Folk was found to be a career offender under the United
States Sentencing Guidelines (“U.S.S.G.” or “Guidelines”), and his
resultant sentencing Guideline range was 420 months to life.
(Presentence Investigation Report (“PSR”)
29-31, 79). On
September 26, 2013, the court granted a significant downward
variance and sentenced Folk to 264 months’ imprisonment. (Doc.
134 at 28-29; Doc. 126).

♦

Folk appealed the denial of a motion for a mistrial made
during trial, as well as the denial of his post-trial motion for a new
trial. (Doc. 127); United States v. Folk, 577 F. App’x 106, 106 (3d
Cir. 2014) (nonprecedential). On September 17, 2014, the Third
Circuit affirmed the judgment. Folk, 577 F. App’x at 107. The
Supreme Court of the United States denied Folk’s petition for a
writ of certiorari on October 5, 2015. Folk v. United States, 136 S.
Ct. 161 (2015) (mem).
On June 5, 2016, Folk—through counsel from the Federal
Public Defender’s Office—filed his first motion under 28 U.S.C.
§ 2255 based on the recent Supreme Court case of Johnson v.
United States, 135 S. Ct. 2551 (2015) (holding the residual clause
of the Armed Career Criminal Act (“ACCA”) unconstitutionally
void for vagueness). (Doc.139). It appears as though the Federal
Public Defender, appointed under a Middle District standing order
1 On February 5, 2018, this case was reassigned from the Honorable William W. Caldwell to
the undersigned due to Judge Caldwell’s retirement.
2
36a

Appx. 7

Case l:ll-cr-00292-JEJ Document 192 Filed 06/22/18 Page 3 of 30

{see Doc. 141 (M.D. Pa. Standing Order 15-06)), identified Folk as
a potential candidate for relief under Johnson and filed the 2255
motion on his behalf pursuant to the standing order. Evidently,
due to the looming deadline established by the gatekeeping
requirements of 28 U.S.C. § 2255(f) and Johnson’s date of
decision of June 26, 2015,2 the Federal Public Defender’s policy
was to file the 2255 motion on the defendant’s behalf and
subsequently communicate with the defendant, withdrawing the
motion if the defendant did not want it filed. (Doc. 143 at 2). This
practice appears to have been followed in the instant case. {Id. at
2-3).
On June 8, 2016, the Federal Public Defender moved to
appoint counsel from the Criminal Justice Act (“CJA”) panel to
represent Folk in his Johnson-based 2255 motion. (Doc. 143).
The request for appointment of CJA counsel was the result of a
conflict of interest with Folk stemming from a civil case he filed
against the Federal Public Defender’s Office. {Id. at 3). The court
granted this motion the following day, and CJA counsel was
appointed. (Doc. 144; Doc. 149 at 1).
On August 30, 2016, the court issued an order for the
Government to show cause why relief should not be granted on
Folk’s 2255 motion. (Doc. 145). Because his Johnson claim
implicated the residual clause of the career offender portion of the
Guidelines, see U.S.S.G. §4B1.2(a)(2) (2013), rather than the
residual clause of the ACCA, the Government moved to stay the
case in light of relevant cases pending in the Third Circuit as well
as the Supreme Court’s grant of certiorari in Beckles v. United
States, 616 F. App’x 415 (11th Cir. 2015) (per curiam), cert,
granted, 136 S. Ct. 2510 (2016) (mem.) (granting certiorari to
determine, inter alia, whether advisory Guideline [s’] residual
clause found in U.S.S.G. §4B1.2(a)(2) was void for vagueness
2 28 U.S.C. § 2255(f)(3) provides for a one-year statute of limitations that begins to run “on the
date on which the right asserted was initially recognized by the Supreme Court, if that right has
been newly recognized by the Supreme Court and made retroactively applicable to cases on
collateral review[.]” For most defendants who had not filed a previous 2255 motion, and
whose judgments of conviction became final more than a year prior to the Johnson decision,
Section 2255(f)(3) provided the only means to file a timely initial 2255 motion to assert a
Johnson claim.
3
37a

Appx. 8

Case l:ll-cr-00292-JEJ Document 192 Filed 06/22/18 Page 4 of 30

after Johnson). (Doc. 147 at 2). Folk’s counsel concurred in the
stay. (Id. at 3). On September 19, 2016, the court granted the
unopposed motion to stay the case in light of the grant of certiorari
in Beckles. (Doc. 148).
After the September 19, 2016 imposition of a stay, no
entries appear on the docket until February 27, 2017, when Folk’s
CJA counsel filed an unopposed motion to withdraw as counsel,
(Doc. 149). In her motion to withdraw, which contained little
detail, CJA counsel cited an inability to communicate effectively
with Folk and his explicit request that she withdraw from his case.
(Id. at 2). The court granted the motion to withdraw on April 7,
2017, noting that Folk would proceed pro se in the post-conviction
matters. (Doc. 153).
On April 3, 2017, four days prior to the court granting CJA
counsel’s motion to withdraw, Folk filed a pro se “motion to
amend under 15(c)(2)(B)3 in regards to original 2255.” (Doc.
151). Within this motion to amend his initial 2255 motion, Folk
referenced a “motion [for] leave [to] amend under [Rule] 15(a)”
that he purportedly filed in October of 2016. (Id. at 1). As
explained above, however, no motion to amend—or any other
motion or document—appears on this case’s docket in October of
2016. Folk also mentioned this October 2016 motion to “amend
under 15(a)” in his reply brief (Doc. 158), averring that the motion
was deposited in the prison mail system on October 5, 2016.4
(Doc. 158 at 1,2).
Importantly, Folk attached, as “Exhibit (A)” to his reply
brief, the cover page of this October 5, 2016 pro se motion to
3 The court construed Folk’s motion to amend “under Rule 15(c)(2)(B)” as a motion for leave
to amend pursuant to Federal Rule of Civil Procedure 15(c)(1)(B), as Rule 15 does not contain
a subsection “(c)(2)(B).” (See Doc. 161 at 4 n.2); Fed. R. Civ. P. 15(c).
4 This mailed-by date is important. Under the prisoner mailbox rule, documents placed in the
prison mailbox system are deemed filed on the date they are mailed, not the date they are
received by the court. See Pabon v. Mahanoy, 654 F.3d 385, 391 n.8 (3d Cir. 2011).
Moreover, as will be discussed in more detail below, October 5, 2016, was the deadline for
Folk to raise claims for relief in an initial 2255 motion pursuant to the one-year statute of
limitations set forth in 28 U.S.C. § 2255(f)(1).
4

38a

Appx. 9

Case l:ll-cr-00292-JEJ Document 192 Filed 06/22/18 Page 5 of 30

C

“amend under 15(a),” which contains a “FILED” time-stamp of
October 7, 2016, and initials of a staff member from the clerk’s
office. (See Doc. 158-1 at 1). Upon investigation, it appears
that—without this court’s knowledge—the clerk’s office had
initially stamped the motion to “amend under 15(a)” as filed, but
instead of filing it on the docket, mailed the pro se motion back to
Folk after discovering that he was represented by CJA counsel.
In his reply brief, Folk further averred that he explicitly
asked his CJA counsel to raise other issues for relief, beyond the
Johnson claim, within the one-year statute of limitations set forth
in Section 2255(f)(1). (See Doc. 158 at 1). CJA counsel
corroborated this averment in her telephonic communications with
this court prior to her withdrawal from the case, stating that Folk
had wanted to raise additional claims but that she was having
significant difficulty deciphering what those claims entailed.
On August 2, 2017, the court permitted Folk to file the entire
October 5, 2016 motion to “amend under 15(a)” so that it could be
properly considered. (See Doc. 162). . . . One week later, Folk
filed the full October 5, 2016 motion as requested. (See Doc. 163).
On August 23, 2017, the Government filed its brief in
opposition to Folk’s motion to “amend under 15(a).” (Doc. 166).
The Government appealed] to concede that leave to amend should
be granted, but challenge [d] the merits of the additional claims
raised in the motion. (Id. at 2-19).
(Doc. 177 at 1-7).
While Folk’s initial motion to “amend under 15(a)” was under
consideration, he filed two additional motions to amend his 2255 motion. The
first additional motion to amend was filed on August 17, 2017, and the second
was filed on November 3, 2017. (Docs. 165, 169). Then, on November 30,

5
Appx. 10

39a

Case l:ll-cr-00292-JEJ Document 192 Filed 06/22/18 Page 6 of 30

2017, Folk filed a motion (Doc. 170) to appoint counsel, as well as a motion
(Doc. 171) for an evidentiary hearing.
On February 16, 2018, we issued a memorandum and order addressing
Folk’s outstanding motions. (Docs. 177, 178). We noted that because Folk’s
initial motion to “amend under 15(a)” was filed on October 5, 2016, exactly one
year from the date his judgment of conviction became final, it was filed within
the one-year statute of limitations provided by 28 U.S.C. § 2255(f)(1). (Doc. 177
at 8-9). We also found that amendment of his 2255 motion would cause little, if
any, prejudice to the government. (Id.) Thus, we granted his initial motion to
amend and treated the seven claims raised therein as part of his original 2255
motion. However, we ultimately denied the 2255 motion in its entirety, rejecting
the Johnson-based claim asserted in the original motion, as well as the seven
additional claims raised by amendment. (See id. at 9-21). Additionally, we
denied Folk’s August 17, 2017 and November 3, 2017 motions to amend, his
November 30, 2017 motion to appoint counsel, and his November 30, 2017
motion for an evidentiary hearing. (See id. at 21-24).
Since the issuance of our February 16, 2018 decision, Folk has filed eight
additional motions. We have reviewed the first seven of these motions, and for
the reasons set forth below, find that none has merit. We will also request
clarification from Folk regarding his eighth motion, “Movant’s File a Motion
6
Appx. 11

40a

Case r.ll-cr-00292-JEJ Document 192 Filed 06/22/18 Page 7 of 30

Upon FRP Fine Inregards [sic] to Doc. 172 Still Not Answer Under U.S.S.G.
5E1.2(a) and 5E1.2(d)” (Doc. 191), as it is completely incomprehensible.
II.

DISCUSSION
As with Folk’s previous pro se filings, all of the instant motions are

extremely difficult to decipher. Because the first three motions appear to raise
similar arguments, we will address them together.
A.

February 26, 2018 Motion for an Evidentiary Hearing; March 1,
2018 Motion to Alter Judgment and for Reconsideration; and
March 13, 2018 Motion to Amend and Supplement 2255 Motion

In these three motions, it appears that the crux of Folk’s argument is that
he was inappropriately designated a career offender under the United States
Sentencing Guidelines Manual (“U.S.S.G.” or “Guidelines”) and that his CJA
counsel, Attorney Jennifer Wilson (“Attorney Wilson”), was ineffective for
failing to raise this argument in post-conviction proceedings. Also, in his March
1, 2018 Motion to Alter Judgment and for Reconsideration, Folk contends that
Attorney Wilson was ineffective for failing to oppose the government’s motion to
stay his 2255 proceedings.
Initially, we note that both Federal Rule of Civil Procedure 59(e) and Rule
60(b) impose extremely high bars for obtaining relief. Moreover, in order to
assert a new claim for relief in an out-of-time motion to amend a Section 2255
filing, the movant must be able to show that the claim relates back to the original
7

41a

Appx. 12

Case l:ll-cr-00292-JEJ Document 192 Filed 06/22/18 Page 8 of 30

2255 motion. See Mayle v. Felix, 545 U.S. 644, 662-64 (2005). Nonetheless,
because Folk has been attempting to assert these career offender challenges in
one form or another since the initial 2255 motion was filed without his
consultation, we will address the merits of Folk’s arguments to finally put to rest
his claim that he was wrongfully sentenced as a career offender.
1. Career Offender Designation Under the Guidelines
A defendant is considered a career offender if (1) he was at least eighteen
years old at the time he committed the instant offense of conviction; (2) the
instant offense is a felony that is either a crime of violence or a controlled
substance offense; and (3) the defendant has at least two prior felony convictions
of either a crime of violence or a controlled substance offense. U.S.S.G.
§ 4Bl.l(a).5 At the time of Folk’s sentencing, the Guidelines defined “crime of
violence” as any offense under state or federal law that is punishable by a term of
imprisonment exceeding one year, and which either:
(1) has as an element the use, attempted use, or threatened use of
physical force against the person of another, or
(2) is burglary of a dwelling, arson, or extortion, involves the use
of explosives, or otherwise involves conduct that presents a
serious risk of physical injury to another.

5 Unless otherwise specified, all references to the Guidelines Manual reflect the 2012 edition,
as this was the manual utilized for Folk’s PSR and sentencing. (See PSR 17).
8
42a

Appx, 13

Case l:ll-cr-00292-JEJ Document 192 Filed 06/22/18 Page 9 of 30

U.S.S.G. § 4B 1.2(a).6
It is undisputed that Folk was at least eighteen years old when he
committed the instant offense of conviction and that the offense qualified as a
“controlled substance offense.” The only career offender element in question is
whether Folk had two qualifying predicate convictions.
At sentencing, the parties identified four prior Pennsylvania state-court
convictions that could potentially qualify as career offender crimes of violence.
They included two robbery convictions from 2001, a 2003 simple assault
conviction, and a 2003 terroristic threats conviction. (See Doc. 134 at 3-9; PSR

11! 42-44).
Because the 2001 robbery convictions involved two robberies that
purportedly occurred within five minutes and 150 feet of each other, Folk’s
counsel argued at sentencing that the robberies could not be treated as two
separate episodes for purposes of counting predicate offenses. (Doc. 134 at 3-4).
Folk’s counsel, however, appeared to concede that the simple assault and
terroristic threats convictions, in light of then-current Third Circuit law, qualified
as crimes of violence. (Id. at 7-9). Thus, Folk’s counsel conceded, and Judge
Caldwell agreed, that Folk qualified as a career offender under the Guidelines
6 Section 4B1.2 was amended in 2016 to, inter alia, remove the “residual clause,” the final
clause in Section 4B 1.2(a)(2) stating “or otherwise involves conduct that presents a serious risk
of physical injury to another.” See U.S.S.G. app. C amend. 798 (Supp. Nov. 1, 2016). This
amendment does not affect the analysis of the instant motions.
9
43a

Case l:ll-cr-00292-JEJ Document 192 Filed 06/22/18 Page 10 of 30

regardless of whether the two robberies could be treated as separate episodes.
(Id.)
Folk contends that he was wrongfully designated a career offender. He
argues that crimes under Pennsylvania’s robbery, simple assault, and terroristic
threats statutes do not qualify as federally defined “crimes of violence,” and,
therefore, do not constitute predicate offenses under the career offender
Guideline.
In determining whether a prior conviction is a federally defined “crime of
violence,” the court typically employs one of two methods: the “categorical
approach,” or the “modified categorical approach.” See United States v. Harris,
205 F. Supp. 3d 651, 660 (M.D. Pa. 2016). When “a statute sets out a single (or
‘indivisible’) set of elements to define a single crime,” a sentencing court must
employ the “categorical approach” to determine whether the crime constitutes a
“crime of violence.” Mathis v. United States, 136 S. Ct. 2243, 2248 (2016). In
applying the categorical approach, a court “may look only to the elements of a
crime, not ‘to the particular facts underlying those convictions.’” United States v.
Abbott, 748 F.3d 154, 157 (3d Cir. 2014) (quoting Descamps v. United States,
570 U.S. 254, 257 (2013)). Under the categorical approach, a court “comparefs]
the elements of the statute forming the basis of the defendant’s conviction with
the elements of the ‘generic’ crime- i.e., the offense as commonly understood.”
10
44a

Case l:ll-cr-00292-JEJ Document 192 Filed 06/22/18 Page 11 of 30

United States v. Brown, 765 F.3d 185, 189 (3d Cir. 2014) (quoting Descamps,
570 U.S. at 257).
A prior conviction qualifies as a predicate for purposes of career offender
designation “only if the statute’s elements are the same as, or narrower than,
those of the generic offense.” Id. In an ordinary case employing the categorical
approach, “a court simply asks ‘whether the state crime has the use or threat of
physical force [against the person of another] as an element of the offense.’” Id.
(quoting United States v. Remoi, 404 F.3d 789, 794 (3d Cir. 2005)).

If the state

statute ‘sweeps more broadly’ than the federal definition, a conviction under it is
not a career offender predicate even if the defendant actually committed the
offense in a way that involved the use (or threatened use) of physical force
against another.” Id. (citing Descamps, 570 U.S. at 261).
If a statute, however, is ‘“divisible” in that it “comprises multiple,
alternative versions of the same crime,” a sentencing court must employ the
“modified categorical approach.” Descamps, 570 U.S. at 261-62. Under the
modified categorical approach, “a sentencing court may look to a limited class of
extra-statutory documents to determine which version of the offense was the
basis of the conviction.” Brown, 765 F.3d at 189 (citing Descamps, 570 U.S. at
261-62). The court, however, should “apply the modified approach to a divisible
statute and examine extra-statutory documents only when ‘at least one, but not
11
45a

Case l:ll-cr-00292-JEJ Document 192 Filed 06/22/18 Page 12 of 30

all’ of the separate versions of the offense is, by its elements, a predicate
offense.” Id. at 191 (citing Descamps, 570 U.S. at 264).
If a conviction resulted from a jury trial, the sentencing court may consult
“the charging paper and jury instructions.” Id. at 189 (quoting Taylor v. United
States, 495 U.S. 575, 602 (1990)). On the other hand, if the conviction followed
a guilty plea, a court may consult “the charging document, written plea
agreement, transcript of plea colloquy, and any explicit factual finding by the
trial judge to which the defendant assented.” Id. at 189-90 (quoting Shepard v.
United States, 544 U.S. 12, 16 (2005)). After determining which version of the
offense was the basis of a defendant’s conviction, a court “can then compare that
crime, as the categorical approach commands, with the relevant generic offense.”
Mathis, 136 S. Ct. at 2249.
a. Folk’s Terroristic Threats Conviction
On November 3, 2003, Folk pleaded guilty to making terroristic threats in
violation of 18 Pa. Cons. Stat. § 2706. That statute provides, in relevant part:
(a) A person commits the crime of terroristic threats if the person
communicates, either directly or indirectly, a threat to:
(1) commit any crime of violence with intent to terrorize
another;
(2) cause evacuation of a building, place of assembly or
facility of public transportation; or

12
46a

V7

Case l:ll-cr-00292-JEJ Document 192 Filed 06/22/18 Page 13 of 30

(3) otherwise cause serious public inconvenience, or
cause terror or serious public inconvenience with reckless
disregard of the risk of causing such terror or
inconvenience.
18 Pa. Cons. Stat. § 2706(a) (2003).
Folk cites United States v. Brown, 765 F.3d 185 (3d Cir. 2014),7 in support
of his argument that his terroristic threats conviction does not qualify as a career
offender predicate. In Brown, the Third Circuit considered whether a conviction
under Pennsylvania’s terroristic threats statute could constitute a federally
defined “crime of violence” for purposes of the career offender Guideline. See
generally id. The court answered this question in the negative. Id.
The 2014 Brown decision thus dictates that a terroristic threats conviction
under 18 Pa. Cons. Stat. § 2706 cannot qualify as a career offender predicate,
regardless of the subsection under which a defendant was convicted. Folk’s
career offender designation, however, was not solely dependent upon his prior
terroristic threats conviction.

7 We are cognizant that Brown was not decided until September 2, 2014, eleven months after
Folk was sentenced as a career offender. Nevertheless, because the Third Circuit did not
decide Folk’s direct appeal until September 17, 2014, we assume the Brown holding would
have been available to Folk had his career offender designation been challenged on direct
appeal. See Griffith v. Kentucky, 479 U.S. 314, 328 (1987) (“[A] new rule for the conduct of
criminal prosecutions is to be applied retroactively to all cases .. . pending on direct review or
not yet fmal[.]”). We also agree with Folk that, as the Brown court recognized, binding
Supreme Court precedent in Descamps v. United States, 570 U.S. 254 (2013), was available at
sentencing to argue that a conviction under Pennsylvania’s terroristic threats statute could not
qualify as a career offender predicate.
13

Apple-15

47a

i

Case l:ll-cr-00292-JEJ Document 192 Filed 06/22/18 Page 14 of 30

b. Folk’s Simple Assault Conviction
On November 3, 2003, Folk also pleaded guilty to simple assault in
violation of 18 Pa. CONS. Stat. § 2701. Section 2701 provides, in pertinent part,
that a person is guilty of simple assault if he:
(1) attempts to cause or intentionally, knowingly, or
recklessly causes bodily injury to another;
(2) negligently causes bodily injury to another with a
deadly weapon;
(3) attempts by physical menace to put another in fear of
imminent serious bodily injury; or
(4) conceals or attempts to conceal a hypodermic needle
on his person and intentionally or knowingly
penetrates a law enforcement officer during the course
of an arrest or any search of the person.
18 Pa. Cons. Stat. § 2701(a) (2002). This statute is divisible, and requires the
application of the modified categorical approach. See United States v. Doe, 810
F.3d 132, 147 (3d Cir. 2015) (“[Pennsylvania] [s]imple assault is not
categorically a crime of violence under the Sentencing Guidelines[.]”).
According to the pertinent charging document and transcript of Folk’s
guilty plea colloquy, Folk’s 2003 conviction for simple assault involved a
violation of subsection (a)(3) of Pennsylvania’s simple assault statute. (PSR Ex.
2 at 1, 17-19). In Singh v. Gonzales, 432 F.3d 533 (3d Cir. 2006), the Third
Circuit held that a violation of § 2701(a)(3) constitutes a “crime of violence” as
14
48a

/>W*.

Case l:ll-cr-00292-JEJ Document 192 Filed 06/22/18 Page 15 of 30

that term is defined in 18 U.S.C. § 16(a). The court of appeals reasoned as
follows:
[Section] 2701(a)(3) is a crime of violence within 18 U.S.C.
§ 16(a) because it “has as an element the use, attempted use, or
threatened use of physical force against the person or property of
another.” Under Pennsylvania law, simple assault as set forth in
§ 2701(a)(3) is a specific intent crime. The language of (a)(3)
dictates this result: the word “attempt” necessarily involves a
mental state of specific intent. . . . Furthermore, the
requirement. . . that the elements of a “crime of violence”
include “use, attempted use, or threatened use of physical force”
plainly encompasses the term “physical menace” as in
§ 2701(a)(3). Under Pennsylvania law, “physical menace”
requires some physical act by the perpetrator intended to cause
“fear of imminent serious bodily injury” in the victim........
“Physical menace” refers to physical acts committed to threaten
another with corporeal harm. ... We cannot reasonably conceive
of a situation wherein such an act of “physical menace,”
intended to place another in fear of imminent serious bodily
injury, would not, at the very least, constitute the attempted or
threatened use of physical force contemplated by 18 U.S.C.
§ 16(a).
Singh, 432 F.3d at 539-40.
Although Singh specifically discussed the definition of “crime of violence”
set forth in 18 U.S.C. § 16(a), Singh's holding is applicable to cases involving the
identically worded “elements clause” of the career offender definition of crime of
violence. See, e.g., United States v. Jones, 552 F. App’x 185, 187-88 (3d Cir.
2014) (nonprecedential) (recognizing Third Circuit’s holding in Singh and noting
that “[it cannot] be disputed that [a § 2701(a)(3)] offense is a ‘crime of violence’
as that term is defined in the Sentencing Guidelines”); United States v. Jackson,
15
49a

Case l:ll-cr-00292-JEJ Document 192 Filed 06/22/18 Page 16 of 30

No. CV 16-602, CR 10-235, 2016 WL 6839467, at *2 (W.D. Pa. Nov. 21, 2016)
(“Although Singh addressed 18 U.S.C. § 16(a), the definition of‘crime of
violence’ in Section 4B 1.2(a)(1) [of the Guidelines] mirrors that in Section 16(a),
and thus authority interpreting one is generally applied to the other, unless
pertinent distinctions—none of which are present here—are present.”).
In light of the foregoing, Folk’s 2003 conviction for simple assault under
18 Pa. Cons. Stat. § 2701(a)(3) is properly considered a crime of violence for
purposes of the career offender Guideline. Folk, therefore, would need one more
qualifying predicate conviction to be properly designated a career offender.
c. Folk’s Robbery Convictions
We lastly turn to Folk’s prior robbery convictions. On January 8, 2001,
Folk pleaded guilty in state court to two separate counts of robbery. At all
pertinent times, Pennsylvania’s robbery statute provided, in relevant part, as
follows:
(1)

A person is guilty of robbery if, in the course of
committing a theft, he:
(i) inflicts serious bodily injury upon another;
(ii) threatens another with or intentionally puts him in
fear of immediate serious bodily injury;
(iii) commits or threatens immediately to commit any
felony of the first or second degree;

16
50a

AfprA'

Case l:ll-cr-00292-JEJ Document 192 Filed 06/22/18 Page 17 of 30

(iv) inflicts bodily injury upon another or threatens
another with or intentionally puts him in fear of
immediate bodily injury; or
(v) physically takes or removes property from the person
of another by force however slight.
18 Pa. Cons. Stat. § 3701(a) (2000). Under this statute, a robbery under
subsection (a)(l)(iv) is designated as a felony of the second degree, a robbery
under subsection (a)(l)(v) is designated as a felony of the third degree, and
robberies under all other subsections are designated as felonies of the first degree.
Id. § 3701(b).
Acknowledging the divisibility of Pennsylvania’s robbery statute, this
court has recently held that convictions under subsections (a)(l)(i), (a)(l)(ii), and
(a)(l)(iv) qualify as violent felonies. See United States v. Harris, 205 F. Supp.
3d 651, 673 (M.D. Pa. 2016) (Caldwell, J.). On the other hand, convictions
under subsections (a)(l)(iii) and (a)(l)(v) do not qualify as violent felonies. Id.
And although Harris concerned the definition of “violent felony” in the ACCA,
jurisprudence regarding “violent felony” under the ACCA has consistently been
applied to cases involving the career offender Guideline’s definition of “crime of
violence.” See Brown, 765 F.3d at 189 n.2 (citation omitted); United States v.
Hopkins, 577 F.3d 507, 511 (3d Cir. 2009) (“[T]he definition of a violent felony
under the ACCA is sufficiently similar to the definition of a crime of violence

17
51a

PlftX.Jk

Case 1:ll-cr-00292-JEJ Document 192 Filed 06/22/18 Page 18 of 30

under the Sentencing Guidelines that authority interpreting one is generally
applied to the other[.]” (footnote omitted)).
Because Pennsylvania’s robbery statute is divisible, we must apply the
modified categorical approach to Folk’s prior robbery convictions. Based on a
review of the pertinent Shepard documents, it appears that Folk’s January 8,
2001 robbery convictions arose out of two separate robberies, both of which Folk
committed on July 2, 2000. (PSR Ex. 1 at 5-6).
According to the transcript of Folk’s January 8, 2001 guilty plea colloquy,
the first robbery occurred when Folk simply grabbed a silver chain and cross off
the victim’s neck, and, therefore, the offense constituted a robbery by “force,
however slight.” (PSR Ex. 1 at 6). Consequently, the offense was a violation of
18 Pa. Cons. Stat. § 3701(a)(l)(v). Harris recognized that a conviction under
subsection (a)(l)(v) does not qualify as a violent felony under the ACCA. 205 F.
Supp. 3d at 673. Accordingly, because this particular robbery conviction does
not qualify as an ACCA violent felony, it cannot be considered a predicate crime
of violence for purposes of career offender designation. Brown, 765 F.3d at 189
n.2; Hopkins, 577 F.3d at 511.
As for the second July 2, 2000 robbery, the charging information explained
the incident as follows:
[Folk] ... in the course of committing a theft . . . inflicted bodily
injury upon the victim, and put him in fear of immediate serious
18
52a

Case l:ll-cr-00292-JEJ Document 192 Filed 06/22/18 Page 19 of 30

bodily injury, by grabbing the victim by the throat and asking
the victim if he would like to feel a slug in his throat in the
course of taking money from the victim did knock him to the
ground and then kick him about the head area, resulting in injury
to the victim ....
(PSR Ex. 1 at 10). Importantly, the charging information also indicated that the
robbery was a felony of the second degree. (Id.)
Based on the foregoing description of Folk’s second robbery, it is clear that
this conviction fell under subsection (a)(l)(iv). Indeed, an offense under
subsection (a)(l)(iv) was the only robbery offense designated as a second-degree
felony per the Pennsylvania robbery statute in effect at the time of Folk’s
conviction. 18 Pa. Cons. Stat. § 3701(b) (2000).
Harris held that convictions under subsection (a)(l)(iv) qualify as federally
defined violent felonies. 205 F. Supp. 3d at 673. Consequently, Folk’s July 2,
2000 robbery—whether determined to be one event or two—counts as a
predicate crime of violence for purposes of his career offender designation. See
Brown, 765 F.3d at 189 n.2; Hopkins, 577 F.3d at 511.
In sum, it appears that Folk is correct that several of his prior Pennsylvania
crimes—the offense of robbery by force however slight under subsection
(a)(l)(v), and the offense of terroristic threats—do not qualify as predicate crimes
of violence under the Guidelines’ career offender provision. Unfortunately for
Folk, two of his prior convictions do qualify as crimes of violence—namely, the
19
53a

Appx. M

Case T.ll-cr-00292-JEJ Document 192 Filed 06/22/18 Page 20 of 30

simple assault by physical menace under 18 Pa. Cons. Stat. § 2701(a)(3)
(2002), and the robbery conviction under 18 PA. CONS. Stat. § 3701(a)(l)(iv)
(2000). Consequently, since a defendant need only have two predicate crimes of
violence to meet the third element of the career offender definition, and the other
two elements are not in dispute, Folk was properly classified as a career offender
at sentencing. 8
2. CJA Counsel’s Failure to Oppose Government’s Motion to Stay
In his March 1, 2018 Motion to Amend Judgment and for Reconsideration,
Folk also contends that Attorney Wilson was ineffective for failing to oppose the
government’s motion to stay his 2255 proceedings. Folk’s reasoning behind this
ineffectiveness claim is unclear. It appears that Folk may be attempting to raise
one of two arguments, both of which are meritless.
First, Folk may be attempting to argue that counsel should have opposed
the stay because at the time the government requested the stay, there was Third
Circuit precedent holding that the residual clause of the career offender Guideline
was unconstitutionally vague. See United States v. Calabretta, 831 F.3d 128 (3d
Cir. 2016), abrogated in part by Beckles v. United States, 137 S. Ct. 886 (2017).
The problem with this argument is that regardless of whether Attorney Wilson

8 Because Folk qualifies as a career offender, his claim that Attorney Wilson was ineffective
for failing to properly challenge his career offender designation necessarily fails because Folk
cannot establish prejudice under Strickland.
20
54a

Case l:ll-cr-00292-JEJ Document 192 Filed 06/22/18 Page 21 of 30

opposed the stay, the case would have undoubtedly been stayed while the
Supreme Court of the United States was considering the constitutionality of the
career offender Guideline’s residual clause in Beckles.
It has long been recognized that “a court may hold one lawsuit in abeyance
to abide the outcome of another which may substantially affect it or be
dispositive of the issues.” Bechtel Corp. v. Local 215, Laborers’ Int 7 Union of
N. Am., 544 F.2d 1207, 1215 (3d Cir. 1976). This was the exact situation in
Folk’s case. Folk’s 2255 motion claimed that the Johnson decision was
applicable to the similarly worded residual clause of the Guidelines—an issue
that was expressly before the Supreme Court in Beckles. Thus, the decision to
stay Folk’s 2255 motion in light of the pending Beckles decision was entirely
appropriate, and would not have changed even if Attorney Wilson had opposed
the government’s motion to stay.
On the other hand, Folk may be arguing that Attorney Wilson should have
opposed the stay because the issues before the Court in Beckles were irrelevant to
many of the claims Folk wished to pursue. Specifically, it appears that Folk may
be arguing that his prior convictions neither involved the residual clause of the
Guidelines nor qualified as predicate crimes of violence. Therefore, as the
argument may go, his classification as a career offender was erroneous regardless
of whether the Guidelines’ residual clause was deemed unconstitutional by
21
55a

Case l:ll-cr-00292-JEJ Document 192 Filed 06/22/18 Page 22 of 30

Beckles. Under this line of reasoning, the court did not need to postpone the
disposition of Folk’s claims until Beckles was decided.
As we determined above, however, Folk was correctly classified as a
career offender because two of his predicate convictions qualify as crimes of
violence irrespective of the residual clause. Therefore, to the extent that the stay
of Folk’s 2255 motion postponed consideration of the non-Johnson claims
involving his career offender status, Folk was not prejudiced in any way. Folk’s
inability to demonstrate prejudice means that he cannot succeed on his
ineffectiveness claim. See Jacobs v. Horn, 395 F.3d 92, 105 (3d Cir. 2005)
(citing Strickland v. Washington, 466 U.S. 668, 692 (1984)) (explaining that
defendant must show both deficient performance and prejudice to succeed on a
Sixth Amendment ineffective-assistance claim).
In sum, none of the substantive claims within Folk’s first three motions
(Docs. 179, 180, & 183) has merit. Consequently, these motions will be denied.
B.

March 19,2018 Motion to Amend

In Folk’s difficult-to-decipher March 19, 2018 Motion to Amend, he raises
four additional claims for post-conviction relief. First, he contends that his trial
counsel, Attorney Heidi Freese, was ineffective for failing to file pretrial motions
to suppress certain evidence. Second, Folk claims that Attorney Freese was
ineffective for failing to request a medical continuance of various proceedings,
22
56a

Case l:ll-cr-00292-JEJ Document 192 Filed 06/22/18 Page 23 of 30

including Folk’s trial and a pretrial hearing. Third, Folk appears to claim that
Attorney Freese was ineffective for failing to properly investigate witnesses and
challenge a superseding indictment that was filed on July 11, 2012, and that
appellate counsel was ineffective for failing to raise these issues on appeal.
Fourth, Folk asserts that Attorney Freese was ineffective for failing to move for a
bill of particulars.
A Section 2255 movant can seek to amend his motion for relief pursuant to
the Federal Rules of Civil Procedure. See United States v. Thomas, 221 F.3d
430, 434 (3d Cir. 2000) (“The Federal Rules of Civil Procedure apply to habeas
corpus proceedings ‘to the extent that the practice in such proceedings is not set
forth in statutes of the United States and has heretofore conformed to the practice
in civil actions.’” (quoting Fed. R. Civ. P. 81(a)(2))); see also 28 U.S.C. § 2242
(“[Application for a writ of habeas corpus] may be amended or supplemented as
provided in the rules of procedure applicable to civil actions.”). Under Federal
Rule of Civil Procedure 15, if more than twenty-one days have elapsed after
service of a pleading or service of a responsive pleading, a party may amend only
with the opposing party’s written consent or with leave of court. Fed. R. Civ. P.
15(a)(1), (2). Leave to amend should be freely given by the court when justice so
requires. Fed. R. Civ. P. 15(a)(2).

23

57a

ft ppv. ys

Case l:ll-cr-00292-JEJ Document 192 Filed 06/22/18 Page 24 of 30

A motion to amend, however, may not be used to circumvent the statute of
limitations Congress provided in 28 U.S.C. § 2255(f). United States v. Duffus,
174 F.3d 333, 338 (3d Cir. 1999) (“A prisoner should not be able to assert a
claim otherwise barred by the statute of limitations merely because he asserted a
separate claim within the limitations period.”). Therefore, if a motion to amend,
which raises new claims for relief, is filed outside of the one-year statute of
limitations, the new claims must relate back under Federal Rule of Civil
Procedure 15(c) to the timely filed claims or else they will be time-barred. See
Mayle v. Felix, 545 U.S. 644, 662 (2005).
In the instant matter, Folk’s judgment of conviction became final on
October 5, 2015, when the Supreme Court denied his timely filed petition for a
writ of certiorari. See Kapral v. United States, 166 F.3d 565, 570 (3d Cir. 1999).
Thus, his deadline for raising post-conviction claims in a 2255 motion would
have been October 5, 2016. 28 U.S.C. § 2255(f)(1). Folk’s March 19, 2018
motion to amend, therefore, was filed well beyond the one-year statute of
limitations, and any claims contained therein are time-barred unless they relate
back under Federal Rule of Civil Procedure 15(c). See Mayle, 545 U.S. at 66264.

In order for an amendment to relate back to an original pleading and thus
be considered timely, the amendment must assert “a claim .. . that arose out of
24
(pXlt
58a

7/
Case l:ll-cr-00292-JEJ Document 192 Filed 06/22/18 Page 25 of 30

the conduct, transaction, or occurrence set out—or attempted to be set out—in
the original pleading[.]” Fed. R. Civ. P. 15(c)(1)(B). Consequently, to avoid
being time-barred, any new claims raised in Folk’s March 19, 2018 motion to
amend must arise from same “conduct, transaction, or occurrence” or be “tied to
a common core of operative facts” as those in his original 2255 motion. See
Mayle, 545 U.S. at 662-64.
Upon review of Folk’s March 19, 2018 motion to amend, the only claim
therein that could possibly relate back to his original 2255 motion is his claim
that trial counsel was ineffective for failing to request a medical continuance of
various proceedings. In his original 2255 motion, Folk claimed that the trial
court erred in failing to grant a medical continuance, and, therefore, we liberally
construe the related claim in his March 19, 2018 motion to arise out of the same
transaction or occurrence. The three other claims Folk attempts to raise by
amendment do not relate back to his original 2255 motion and thus are timebarred. Mayle, 545 U.S. at 662; Duffus, 174 F.3d at 338.
Claims of ineffective assistance of counsel in violation of the Sixth
Amendment are governed by Strickland v. Washington, 466 U.S. 668 (1984).
The burden is on the defendant to prove such a claim. Strickland, 466 U.S. at
687.

25

59a

Apf*3o

Case l:ll-cr-00292-JEJ Document 192 Filed 06/22/18 Page 26 of 30

Strickland sets forth a two-prong test to assess ineffectiveness claims.
First, counsel’s performance must be deficient. Jacobs v. Horn, 395 F.3d 92, 102
(3d Cir. 2005) (citing Strickland, 466 U.S. at 687). “Performance is deficient if
counsel’s efforts ‘fell below an objective standard of reasonableness’ under
‘prevailing professional norms.’” Shotts v. Wetzel, 724 F.3d 364, 375 (3d Cir.
2013) (quoting Strickland, 466 U.S. at 688). However, “a court must indulge a
strong presumption that counsel’s conduct falls within the wide range of
reasonable professional assistance.” Grant v. Lockett, 709 F.3d 224, 234 (3d Cir.
2013) (quoting Strickland, 466 U.S. at 689).
Second, counsel’s deficient performance must have prejudiced the
defendant. Jacobs, 395 F.3d at 105 (citing Strickland, 466 U.S. at 692). “To
demonstrate prejudice, ‘a defendant must show that there is a reasonable
probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different. A reasonable probability is a probability
sufficient to undermine confidence in the outcome.’” Shotts, 724 F.3d at 375
(quoting Strickland, 466 U.S. at 694). A habeas court can forego an analysis of
the Strickland performance prong if it finds that the defendant has failed to
establish prejudice. Mathias v. Superintendent Frackville SCI, 876 F.3d 462, 477
(3d Cir. 2017) (quoting United States v. Lilly, 536 F.3d 190, 196 (3d Cir. 2008)).

26
60a

AfpxTl

Case l:ll-cr-00292-JEJ Document 192 Filed 06/22/18 Page 27 of 30

Folk avers that shortly before his trial, he seriously injured his right knee,
causing him to suffer excruciating pain prior to and during his trial. Folk’s
disjointed argument then strays into a different type of claim that seems to
question the constitutionality of his plea agreement process. (See Doc. 184 at 68).

First, we reject as time-barred any type of plea agreement ineffectiveness
claim, regardless of whether that claim invokes an impaired mental state due to a
knee injury. Such a claim does not arise from the same transaction or
occurrence, or same set of operative facts, as the due process medicalcontinuance claim raised in the original 2255 motion. Folk has never timely
asserted any post-conviction ineffectiveness challenge to his rejection of a
proffered plea deal, and he cannot do so now. Mayle, 545 U.S. at 662; Duffus,
174 F.3d at 338.
Second, as to the claim that Attorney Freese was ineffective for failing to
move for a trial continuance, this contention also fails. Approximately one week
before trial, Folk decided to represent himself. {See generally Docs. 63, 132).
Judge Caldwell granted Folk’s request to proceed pro se and appointed Attorney
Freese to act as standby counsel. (Doc. 132 at 13, 20-21). During the pretrial
hearing regarding the request to proceed pro se, Folk also moved to continue
trial. {Id. at 13-19). This request for a continuance was completely unrelated to
27

61a

Case l:ll-cr-00292-JEJ Document 192 Filed 06/22/18 Page 28 of 30

his medical condition, and instead appears to have been based on Folk’s desire
for more time to prepare for trial. (Id.) Judge Caldwell denied that continuance
request. (Id. at 19).
Folk does not explain how his trial attorney, whom he removed from
representation, acted in a way that fell below Sixth Amendment constitutional
standards. There is no record evidence that Folk asked Attorney Freese to move
for a medical continuance or that a motion from counsel would have been any
more effective than Folk’s own motion during the pretrial hearing.
Furthermore, as to the second Strickland prong, Folk fails to provide any
explanation regarding how the outcome of his trial likely would have been
different if counsel had requested a medical continuance. The record reveals that
Folk ably represented himself for the first part of his trial, and then chose to have
standby counsel take over for the second half. (See Doc. 135 at 109-11). Folk
has not shown how he was prejudiced in any way by the alleged ineffectiveness
of Attorney Freese. In other words, Folk has not demonstrated that but for
appointed counsel’s alleged ineffectiveness in failing to move for a medical
continuance, there is a “reasonable probability” that the result of his trial “would
have been different.” Shotts, 724 F.3d at 375 (quoting Strickland, 466 U.S. at
694).

28
62a

pp*7' 33

Case l:ll-cr-00292-JEJ Document 192 Filed 06/22/18 Page 29 of 30

Considering the foregoing, Folk’s March 19, 2018 motion to amend will
be denied. Three of the four claims raised therein are time-barred, and the other
claim is meritless and thus amendment would be futile.
C. Folk’s “Motion Under Status Quo in Light of Motion’s After Doc.
181 Clerical Error”
We next turn to Folk’s “Motion Under Status Quo in Light of Motion’s
After Doc. 181 Clerical Error,” which he filed on April 18, 2018. (Doc. 186). In
this “motion,” Folk does not raise any new substantive claims. Instead, it appears
that he is merely inquiring as to the status of his other pending motions. Because
we addressed all of those pending motions in the above discussion, Folk’s April
18, 2018 motion for a status update will be dismissed as moot.
D. Folk’s Motion for an Order to Show Cause and Motion for
Judgment on the Pleadings
Finally, we address Folk’s Motion for an Order to Show Cause and his
Motion for Judgment on the Pleadings. (Docs. 189, 190). These motions will be
denied. In his show-cause request, Folk demands a response from the
Government on his pending motions, but no Government response is required.
We can, and have, addressed the outstanding motions in the foregoing discussion
without need for government briefing.
Folk’s motion for judgment on the pleadings is also meritless. Despite the
Government’s lack of response to the pending motions, we have determined that
29
63a

Aftf*' 3H

1
Case l:ll-cr-00292-JEJ Document 192 Filed 06/22/18 Page 30 of 30

no Government response is necessary. That is because, even liberally construed,
Folk’s substantive motions lack merit and must be denied. Consequently, Folk’s
motion for judgment on the pleadings is likewise denied.
III.

CONCLUSION
For the foregoing reasons, Folk’s pending motions (Docs. 179, 180, 183,

184, 186, 189, 190) will all be denied. Folk will also be ordered to provide
clarification regarding his most recent motion (Doc. 191). An appropriate order
will follow.

30

A P(P

64a

A

Case l:ll-cr-00292-JEJ Document 176 Filed 02/16/18 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA

UNITED STATES OF AMERICA

1:11 -cr-292
Hon. John E. Jones III

v.

OMAR SIERRE FOLK,
Defendant.
ORDER
AND NOW, this 16th day of February, 2018, upon consideration of defendant
Omar Sierre Folk’s motion (Doc. 172), which appears to challenge the amount of the
fine imposed at judgment, {see Doc. 126 at 1, 6-7), it is ORDERED that:
1. The Government shall respond to Folk’s motion (Doc.
172) within twenty-one (21) days from the date of this
order.
2. Folk, if he desires, may file a reply brief within fourteen
(14) days after the Government’s brief in response is filed.

s/ John E. Jones III
John E. Jones III
United States District Judge

Case l:ll-cr-00292-JEJ Document 177 Filed 02/16/18 Page 1 of 24

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA

UNITED STATES OF AMERICA
v.

1:11 -cr-292
Hon. John E. Jones III

OMAR SIERRE FOLK,
Defendant.
MEMORANDUM
February 16,2018
Presently before the court are defendant Omar Sierre Folk’s motion (Doc.
139) for relief under 28 U.S.C. § 2255 (“2255 motion”), as well as a motion
(Doc. 163) to amend his 2255 motion. Folk has also filed two additional motions
to amend, (Docs. 165, 169), two motions for a hearing, (Docs. 168, 171), and a
motion to appoint counsel, (Doc. 170). For the reasons that follow, the court will
grant Folk’s first motion to amend (Doc. 163), but will deny all of his other
motions, including his motion for relief under 28 U.S.C. § 2255.
I.

BACKGROUND
On August 14, 2012, a jury convicted Folk of various drug and firearms

offenses. (Docs. 82, 84). Shortly thereafter, he moved for a new trial or
alternatively to vacate judgment. (Doc. 87). The court denied that post-trial
motion. (Doc. 90).

Case l:ll-cr-00292-JEJ Document 177 Filed 02/16/18 Page 2 of 24

Folk was found to be a career offender under the United States Sentencing
Guidelines (“U.S.S.G.” or “Guidelines”), and his resultant sentencing Guideline
range was 420 months to life. (Presentence Investigation Report (“PSR”) fflj 2931, 79). On September 26, 2013, the court granted a significant downward
variance and sentenced Folk to 264 months’ imprisonment. (Doc. 134 at 28-29;
Doc. 126).
Folk appealed the denial of a motion for a mistrial made during trial, as
well as the denial of his post-trial motion for a new trial. (Doc. 127); United
States v. Folk, 577 F. App’x 106, 106 (3d Cir. 2014) (nonprecedential). On
September 17, 2014, the Third Circuit affirmed the judgment. Folk, 577 F.
App’x at 107. The Supreme Court of the United States denied Folk’s petition for
a writ of certiorari on October 5, 2015. Folk v. United States, 136 S. Ct. 161
(2015) (mem).
On June 5, 2016, Folk—through counsel from the Federal Public
Defender’s Office—filed his first motion under 28 U.S.C. § 2255 based on the
recent Supreme Court case of Johnson v. United States, 135 S. Ct. 2551 (2015)
(holding the residual clause of the Armed Career Criminal Act (“ACCA”)
unconstitutionally void for vagueness). (Doc. 139). It appears as though the
Federal Public Defender, appointed under a Middle District standing order (see
Doc. 141 (M.D. Pa. Standing Order 15-06)), identified Folk as a potential
2

Case l:ll-cr-00292-JEJ Document 177 Filed 02/16/18 Page 3 of 24

candidate for relief under Johnson and filed the 2255 motion on his behalf
pursuant to the standing order. Evidently, due to the looming deadline
established by the gatekeeping requirements of 28 U.S.C. § 2255(f) and
Johnson's date of decision of June 26, 2015,1 the Federal Public Defender’s
policy was to file the 2255 motion on the defendant’s behalf and subsequently
communicate with the defendant, withdrawing the motion if the defendant did
not want it filed. (Doc. 143 at 2). This practice appears to have been followed in
the instant case. {Id. at 2-3).
On June 8, 2016, the Federal Public Defender moved to appoint counsel
from the Criminal Justice Act (“CJA”) panel to represent Folk in his Johnsonbased 2255 motion. (Doc. 143). The request for appointment of CJA counsel
was the result of a conflict of interest with Folk stemming from a civil case he
filed against the Federal Public Defender’s Office. (Id. at 3). The court granted
this motion the following day, and CJA counsel was appointed. (Doc. 144; Doc.
149 at 1).
On August 30, 2016, the court issued an order for the Government to show
cause why relief should not be granted on Folk’s 2255 motion. (Doc. 145).
28 U.S.C. § 2255(f)(3) provides for a one-year statute of limitations that begins to run “on the
date on which the right asserted was initially recognized by the Supreme Court, if that right has
been newly recognized by the Supreme Court and made retroactively applicable to cases on
collateral review[.]” For most defendants who had not filed a previous 2255 motion, and
whose judgments of conviction became final more than a year prior to the Johnson decision,
Section 2255(f)(3) provided the only means to file a timely initial 2255 motion to assert a
Johnson claim.
3

Case l:ll-cr-00292-JEJ Document 177 Filed 02/16/18 Page 4 of 24

Because his Johnson claim implicated the residual clause of the career offender
portion of the Guidelines, see U.S.S.G. § 4B1.2(a)(2) (2013), rather than the
residual clause of the ACCA, the Government moved to stay the case in light of
relevant cases pending in the Third Circuit as well as the Supreme Court’s grant
of certiorari in Beetles v. United States, 616 F. App’x 415 (11th Cir. 2015) (per
curiam), cert, granted, 136 S. Ct. 2510 (2016) (mem.) (granting certiorari to
determine, inter alia, whether advisory Guideline’s residual clause found in
U.S.S.G. § 4B1.2(a)(2) was void for vagueness after Johnson). (Doc. 147 at 2).
Folk’s counsel concurred in the stay. {Id. at 3). On September 19, 2016, the
court granted the unopposed motion to stay the case in light of the grant of
certiorari in Beetles. (Doc.148).
After the September 19, 2016 imposition of a stay, no entries appear on the
docket until February 27, 2017, when Folk’s CJA counsel filed an unopposed
motion to withdraw as counsel, (Doc. 149). In her motion to withdraw, which
contained little detail, CJA counsel cited an inability to communicate effectively
with Folk and his explicit request that she withdraw from his case. {Id. at 2).
The court granted the motion to withdraw on April 7, 2017, noting that Folk
would proceed pro se in the post-conviction matters. (Doc. 153).

4

Case l:ll-cr-00292-JEJ Document 177 Filed 02/16/18 Page 5 of 24

On April 3, 2017, four days prior to the court granting CJA counsel’s
motion to withdraw, Folk filed a pro se “motion to amend under 15(c)(2)(B) m
regards to original 2255.” (Doc. 151). Within this motion to amend his initial
2255 motion, Folk referenced a “motion [for] leave [to] amend under [Rule]
15(a)” that he purportedly filed in October of 2016. {Id. at 1). As explained
above, however, no motion to amend—or any other motion or documentappears on this case’s docket in October of 2016. Folk also mentioned this
October 2016 motion to “amend under 15(a)” in his reply brief (Doc. 158),
averring that the motion was deposited in the prison mail system on October 5,
2016.3 (Doc. 158 at 1,2).
Importantly, Folk attached, as “Exhibit (A)” to his reply brief, the cover
page of this October 5, 2016 pro se motion to “amend under 15(a),” which
contains a “FILED” time-stamp of October 7, 2016, and initials of a staff
member from the clerk’s office. {See Doc. 158-1 at 1). Upon investigation, it
appears that—without this court’s knowledge—the clerk’s office had initially

2 The court construed Folk’s motion to amend “under Rule 15(c)(2)(B)” as a motion for leave
to amend pursuant to Federal Rule of Civil Procedure 15(c)(1)(B), as Rule 15 does not contain
a subsection “(c)(2)(B).” {See Doc. 161 at 4 n.2); Fed. R. Civ. P. 15(c).
This mailed-by date is important. Under the prisoner mailbox rule, documents placed in the
prison mailbox system are deemed filed on the date they are mailed, not the date they are
received by the court. See Pabon v. Mahanoy, 654 F.3d 385, 391 n.8 (3d Cir. 2011).
Moreover, as will be discussed in more detail below, October 5, 2016, was the deadline for
Folk to raise claims for relief in an initial 2255 motion pursuant to the one-year statute of
limitations set forth in 28 U.S.C. § 2255(f)(1).
5

Case l:ll-cr-00292-JEJ Document 177 Filed 02/16/18 Page 6 of 24

stamped the motion to “amend under 15(a)” as filed, but instead of filing it on the
docket, mailed the pro se motion back to Folk after discovering that he was
represented by CJA counsel.
In his reply brief, Folk further averred that he explicitly asked his CJA
counsel to raise other issues for relief, beyond the Johnson claim, within the oneyear statute of limitations set forth in Section 2255(f)(1). {See Doc. 158 at 1).
CJA counsel corroborated this averment in her telephonic communications with
this court prior to her withdrawal from the case, stating that Folk had wanted to
raise additional claims but that she was having significant difficulty deciphering
what those claims entailed.
On August 2, 2017, the court permitted Folk to file the entire October 5,
2016 motion to “amend under 15(a)” so that it could be properly considered.
{See Doc. 162). In particular, the court directed as follows:
After [Folk] provides the court with the full October 5,
2016 motion to amend, the Government will have an
opportunity to respond to that motion. Once the court
addresses the October 5, 2016 motion to amend, [Folk]
will be free to renew his additional motions if he so
desires. Fie will also be permitted to re-assert his Rule
15(c) relation back claims contained in the instant motion
to amend that this court has deferred on addressing at the
present time.
(Doc. 162 at 7) (emphasis added). One week later, Folk filed the full October 5,
2016 motion as requested. {See Doc. 163).
6

Case l:ll-cr-00292-JEJ Document 177 Filed 02/16/18 Page 7 of 24

On August 23, 2017, the Government filed its brief in opposition to Folk’s
motion to “amend under 15(a).” (Doc. 166). The Government appears to
concede that leave to amend should be granted, but challenges the merits of the
additional claims raised in the motion. {Id. at 2-19).
As noted, Folk has repeatedly ignored this court’s directions by continuing
to file various motions in this case, including multiple other motions to amend,
before we have ruled on his initial motion to amend.4 Therefore, we will first
address Folk’s initial 2255 motion and the October 5, 2016 motion to “amend
under 15(a).” The remaining pending motions will then be considered.
II.

DISCUSSION
A Section 2255 movant can seek to amend his motion for relief pursuant to

the Federal Rules of Civil Procedure. See United States v. Thomas, 221 F.3d
430, 434 (3d Cir. 2000) (“The Federal Rules of Civil Procedure apply to habeas
corpus proceedings ‘to the extent that the practice in such proceedings is not set
forth in statutes of the United States and has heretofore conformed to the practice
in civil actions.’” (quoting Fed. R. Civ. P. 81(a)(2))); see also 28 U.S.C. § 2242
(“[Application for a writ of habeas corpus] may be amended or supplemented as
provided in the rules of procedure applicable to civil actions.”). Under Federal

4 On February 5, 2018, shortly after Folk had filed his last additional motion, this case was
reassigned from the Flonorable William W. Caldwell to the undersigned due to Judge
Caldwell’s retirement.
7

Case l:ll-cr-00292-JEJ Document 177 Filed 02/16/18 Page 8 of 24

Rule of Civil Procedure 15, if more than twenty-one days have elapsed after
service of a pleading or service of a responsive pleading, a party may amend only
with the opposing party’s written consent or with leave of court. Fed. R. Civ. P.
15(a)(1), (2). Leave to amend should be freely given by the court when justice so
requires. Fed. R. Civ. P. 15(a)(2).
A motion to amend, however, may not be used to circumvent the statute of
limitations Congress provided in 28 U.S.C. § 2255(f). United States v. Duffus,
174 F.3d 333, 338 (3d Cir. 1999) (“A prisoner should not be able to assert a
claim otherwise barred by the statute of limitations merely because he asserted a
separate claim within the limitations period.”). Therefore, if a motion to amend,
which raises new claims for relief, is filed outside of the one-year statute of
limitations, the new claims must relate back under Federal Rule of Civil
Procedure 15(c) to the timely filed claims or else they will be time-barred. See
Mayle v. Felix, 545 U.S. 644, 662 (2005).
Here, it appears that Folk first moved to amend his initial 2255 motion on
October 5, 2016, exactly one year from the date his judgment of conviction
became final.5 Through no fault of his own, that motion to amend was errantly
returned to him instead of being docketed. At that time, Folk’s 2255 motion was

5 Folk’s judgment of conviction became final on October 5, 2015, when the Supreme Court
denied his timely filed petition for certiorari. See Kapral v. United States, 166 F.3d 565, 570
(3d Cir. 1999).
8

Case l:ll-cr-00292-JEJ Document 177 Filed 02/16/18 Page 9 of 24

stayed, and the court had neither required a substantive response from the
Government nor made a determination on the 2255 motion’s merits. As such,
amendment of that 2255 motion to add additional claims would have caused
little, if any, prejudice to the Government. Moreover, the October 5, 2016
motion to amend was filed within the one-year statute of limitations provided by
28 U.S.C. § 2255(f)(1), and therefore relation back is not at issue. Finally, Folk’s
initial 2255 motion was filed by the Federal Public Defender without consultation
regarding whether Folk wanted to include other grounds for relief beyond the
Johnson claim, and, as discussed above, Folk clearly wanted to include additional
claims.
Accordingly, we will grant Folk’s October 5, 2016 motion to “amend
under 15(a)” (Doc. 163) and will thus treat the claims raised in that motion as
part of his original 2255 motion. The court now turns to the merits of Folk’s
grounds for relief under 28 U.S.C. § 2255.
A. Johnson Claim
After the Supreme Court’s decision in Beckles v. United States, 137 S. Ct.
886 (2017), Folk’s Johnson-based claim for relief fails. In Beckles, the Court
explained that its decision in Johnson did not extend to the residual clause of the
advisory career-offender Guideline. 137 S. Ct. at 890. The Court specifically
held that Section 4B 1.2(a)(2) of “the advisory Guidelines [is] not subject to
9

Case l:ll-cr-00292-JEJ Document 177 Filed 02/16/18 Page 10 of 24

vagueness challenges under the Due Process Clause.” Id. Distinguishing its
holding in Johnson, the Court in Beckles relied on the distinction between the
effect at sentencing of the discretionary nature of the advisory Guidelines and
mandatory statutes like the ACCA:
Unlike the ACCA, however, the advisory Guidelines do not
fix the permissible range of sentences. To the contrary, they
merely guide the exercise of a court’s discretion in choosing
an appropriate sentence within the statutory range.
Accordingly, the [advisory] Guidelines are not subject to a
vagueness challenge under the Due Process Clause. The
residual clause in § 4B 1.2(a)(2) therefore is not void for
vagueness.
Id. at 892.
Folk was sentenced as a career offender under the advisory Guidelines.
{See PSR

17, 26, 29-31). Thus, even if his career-offender status was based on

the residual clause of the advisory Guidelines, Beckles dictates that Folk’s
Johnson-based collateral challenge to the constitutionality of his sentence must
be rejected.
B. Claims Added by October 5,2016 Amendment
In his pro se motion to “amend under 15(a),” which is extremely difficult
to decipher, Folk appears to raise seven additional grounds for relief: (1)
entrapment by state and federal law enforcement, as well as sentencing
entrapment; (2) a Fourth Amendment claim based on a theory of forced
abandonment; (3) an alleged Federal Rule of Evidence 608(b) error during trial;
10

Case l:ll-cr-00292-JEJ Document 177 Filed 02/16/18 Page 11 of 24

(4) alleged improper court involvement in plea negotiations; (5) overly
prejudicial testimony from a government witness; (6) ineffective assistance of
counsel for failure to raise selective and vindictive prosecution claims; and (7)
trial-court error in failing to grant Folk a medical continuance. (Doc. 163). The
primary problem for Folk is that only one of these seven additional grounds for
relief—ground six—is cognizable in the instant Section 2255 proceedings.
A Section 2255 motion is the appropriate procedural vehicle to challenge a
federal sentence that the movant claims “was imposed in violation of the
Constitution or laws of the United States[.]” 28 U.S.C. § 2255. But it is not
intended to be a substitute for a direct appeal. See United States v. Travillion,
759 F.3d 281, 288 n.l 1 (3d Cir. 2014) (citing United States v. DeRewal, 10 F.3d
100, 105 n.4 (3d Cir. 1993)). Claims that should have been raised on direct
appeal, but were not, are not cognizable in a 2255 motion unless the movant can
establish cause and prejudice, or actual innocence. Massaro v. United States, 538
U.S. 500, 504 (2003) (citations omitted); Hodge v. United States, 554 F.3d 372,
378-79 (3d Cir. 2009) (citations omitted). “Cause for a procedural default exists
where something external to the [movant], something that cannot fairly be
attributed to him[,] . . . impeded [his] efforts” to raise the claim at trial or on
direct appeal. Maples v. Thomas, 565 U.S. 266, 280 (2012) (second and third
alterations in original) (citations and internal quotation marks omitted). To
11

Case l:ll-cr-00292-JEJ Document 177 Filed 02/16/18 Page 12 of 24

establish prejudice, a movant must show not merely that there were errors that
created a possibility of prejudice, but that they “worked to his actual and
substantial disadvantage, infecting his entire trial with error of constitutional
dimensions.” Holland v. Horn, 519 F.3d 107, 112 (3d Cir. 2008) (quoting United
States v. Frady, 456 U.S. 152, 170 (1982)).
1. Entrapment & Sentencing Entrapment
Folk did not raise a claim of entrapment or sentencing entrapment at the
trial-court level or on direct appeal. He has also not made any showing of
cause—let alone prejudice—to excuse the procedural default of these claims.
Accordingly, we cannot consider these claims on collateral review. Massaro,
538 U.S. at 504.
2. Fourth Amendment Claim Alleging Forced Abandonment
Folk next appears to argue that, due to “forced abandonment” of drugs, his
Fourth Amendment rights were violated. (Doc. 163 at 4-6). He does not,
however, specify what relief should follow from this alleged constitutional
violation. No discussion on relief is necessary, though, because this claim is
meritless.
First, no such Fourth Amendment claim was raised at trial or on direct
appeal. Therefore, this claim is procedurally defaulted and cannot be considered

12

Case l:ll-cr-00292-JEJ Document 177 Filed 02/16/18 Page 13 of 24

in a 2255 motion unless cause and prejudice are established. Massaro, 538 U.S.
at 504. Folk has shown neither.
Second, such a free-standing Fourth Amendment claim is most likely not
cognizable on Section 2255 collateral review. Federal courts of appeal that have
considered this issue have expressly barred free-standing Fourth Amendment
claims from being raised in 2255 motions when there was an opportunity for “full
and fair litigation” of the claim at trial or on direct appeal. See Ray v. United
States, 721 F.3d 758, 762 (6th Cir. 2013); Brock v. United States, 573 F.3d 497,
500 (7th Cir. 2009); United States v. Ishmael, 343 F.3d 741, 742 (5th Cir. 2003);
United States v. Cook, 997 F.2d 1312, 1317 (10th Cir. 1993); United States v.
Hearst, 638 F.2d 1190, 1196 (9th Cir. 1980). Although the Third Circuit has not
yet directly addressed this issue, it has at least questioned whether such claims
are reviewable. See United States v. Britton, C.A. No. 17-1389, 2017 WL
3630168, at *1 (3d Cir. May 16, 2017) (nonprecedential) (citing Stone v. Powell,
428 U.S. 465, 481-82 (1976) and Ray, 721 F.3d at 761); see also Huggins v.
United States, 69 F. Supp. 3d 430, 458 (D. Del. 2014) (following other courts of
appeal by extending Stone v. Powell to bar free-standing Fourth Amendment
claims raised in 2255 motion when movant had earlier opportunity to litigate
those claims).

13

Case l:ll-cr-00292-JEJ Document 177 Filed 02/16/18 Page 14 of 24

3. Alleged Federal Rule of Evidence 608(b) Error at Trial
Folk also contends the trial court impermissibly foreclosed crossexamination of Trooper Shawn Wolfe (“Trooper Wolfe”) about a civil lawsuit
alleging that Trooper Wolfe used excessive force. During the portion of the trial
when Folk was representing himself, Folk questioned Trooper Wolfe about the
lawsuit and the Government objected on the basis of relevancy. (Doc. 135 at
103). The court sustained the objection, finding the excessive-force lawsuit
irrelevant. (Id at 103-04). Folk now contends this was an error under Federal
Rule of Evidence 608(b). This claim fails procedurally and on the merits.
As an initial matter, Folk procedurally defaulted on this claim by not
raising it on direct appeal. Again, Folk has not demonstrated cause or prejudice
to permit review of this claim, and therefore it must be denied. Massaro, 538
U.S. at 504.
Even if the court could entertain the claim, it is meritless. Federal Rule of
Evidence 608(b) permits the court, in its discretion, to allow cross-examination of
a witness regarding “specific instances of a witness’s conduct in order to attack
or support the witness’s character for truthfulness” if those acts are “probative of
the [witness’s] character for truthfulness or untruthfulness[.]” Fed. R. Evid.
608(b). Folk has failed to show—both at trial and in his 2255 motion—why the
civil lawsuit alleging excessive force is in any way probative of the truthfulness
14

Case l:ll-cr-00292-JEJ Document 177 Filed 02/16/18 Page 15 of 24

of Trooper Wolfe. Therefore, excluding such cross-examination was an
appropriate exercise of the trial court’s discretion under Rule 608(b).
4. Alleged Court Participation in Plea Discussions
Folk next asserts that the trial court impermissibly involved itself with the
negotiations of an 11(c)(1)(C) plea agreement during trial. We decline to reach
the merits of this claim. Folk did not raise it on direct appeal, nor has he
established cause or prejudice to excuse the procedural default. Accordingly, this
claim must be denied. Massaro, 538 U.S. at 504.6
5. Alleged Prejudicial Testimony of Melanie Schill
In Folk’s fifth ground for relief, he appears to argue that the testimony
from a government witness during trial was incurably prejudicial and requires a
new trial. Our colleague Judge Caldwell found it not to be such, and we agree
with his sound conclusion.
During trial, Melanie Schill (“Schill”)—Folk’s ex-girlfriend and mother of
his daughter—testified about events that took place while she and Folk were
living together. In particular, Schill described an incident where she and Folk got
6 We also reject the additional and unrelated claims Folk raises in this section and the
following section of his 2255 motion. He appears to assert that Johnson's holding requires
dismissal of Counts 2 and 3—the charges related to Section 924(c). (Doc. 163 at 11-12, 1415). The court assumes that Folk is arguing that his Section 924(c) convictions implicate the
residual clause found in 18 U.S.C. § 924(c)(3)(B), and are now unconstitutional after Johnson.
These claims are meritless because Folk’s charges under Section 924(c) were based on his use
of a firearm in relation to or in furtherance of drug trafficking crimes. (See Doc. 44 at 2-3
(superseding indictment)). They were not related to “crime[s] of violence” defined in part by
the residual clause found in Section 924(c)(3)(B).
15

Case l:ll-cr-00292-JEJ Document 177 Filed 02/16/18 Page 16 of 24

into an argument about his drug-dealing activities, and Folk, while holding their
then-infant daughter, pointed a handgun at Schill and threatened to kill her.
(Doc. 135 at 116-18). Defense counsel repeatedly objected to this testimony, (id.
at 118-19), and eventually moved for a mistrial, (id. at 134-35). The motion for a
mistrial was denied. (Id. at 138).
After the trial concluded, Folk moved for a new trial based in part on this
testimony, arguing it was incurably prejudicial. (Doc. 87 at 5). That motion was
also denied. (Doc. 90 at 5-7). Folk then appealed to the Third Circuit, which
affirmed the denial of the mistrial. United States v. Folk, 577 F. App’x 106, 107
(3d Cir. 2014) (nonprecedential).
Folk now raises the same issue in his 2255 motion. But issues that have
already been decided on direct appeal are not permitted to be relitigated in a 2255
motion. United States v. Travillion, 759 F.3d 281, 288 (3d Cir. 2014) (“[Ijssues
resolved in a prior direct appeal will not be reviewed again by way of a § 2255
motion[.]” (citing United States v. DeRewal, 10 F.3d 100, 105 n.4 (3d Cir.
1993))). Consequently, this claim must be denied.

*7

7 Folk also appears to challenge a sentencing enhancement he received for obstruction of
justice under U.S.S.G. § 3C1.1. (See Doc. 163 at 12-13). This claim, like most of his other
claims, was not raised on direct appeal and therefore is procedurally defaulted. Folk has not
demonstrated cause or prejudice to excuse the default, so this claim must also be denied.
Massaro, 538 U.S. at 504. We further note that this enhancement had no effect on Folk’s
ultimate Guideline calculations because he was found to be a career offender. (See PSR fflf 26
28,29-31).
16

Case l:ll-cr-00292-JEJ Document 177 Filed 02/16/18 Page 17 of 24

6. Ineffective Assistance of Counselfor Failure to Assert Selective
and Vindictive Prosecution Claims
Folk next contends that his appointed trial counsel was constitutionally
ineffective for failing to raise claims of selective and vindictive prosecution.
(Doc. 163 at 15-18). This claim is the only ground asserted in his motion to
“amend under 15(a)” that is cognizable in the instant Section 2255 proceedings.
Nonetheless, it is without merit.
Claims of ineffective assistance of counsel in violation of the Sixth
Amendment are governed by Strickland v. Washington, 466 U.S. 668 (1984).
The burden is on the defendant to prove such a claim. Strickland, 466 U.S. at
687.
Strickland sets forth a two-prong test to assess ineffectiveness claims.
First, counsel’s performance must be deficient. Jacobs v. Horn, 395 F.3d 92, 102
(3d Cir. 2005) (citing Strickland, 466 U.S. at 687). “Performance is deficient if
counsel’s efforts ‘fell below an objective standard of reasonableness’ under
‘prevailing professional norms.’” Shotts v. Wetzel, 724 F.3d 364, 375 (3d Cir.
2013) (quoting Strickland, 466 U.S. at 688). However, “a court must indulge a
strong presumption that counsel’s conduct falls within the wide range of
reasonable professional assistance.” Grant v. Lockett, 709 F.3d 224, 234 (3d Cir.
2013) (quoting Strickland, 466 U.S. at 689).

17

Case l:ll-cr-00292-JEJ Document 177 Filed 02/16/18 Page 18 of 24

Second, counsel’s deficient performance must have prejudiced the
defendant. Jacobs, 395 F.3d at 105 (citing Strickland, 466 U.S. at 692). “To
demonstrate prejudice, ‘a defendant must show that there is a reasonable
probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different. A reasonable probability is a probability
sufficient to undermine confidence in the outcome.’” Shotts, 724 F.3d at 375
(quoting Strickland, 466 U.S. at 694). A habeas court can forego an analysis of
the Strickland performance prong if it finds that the defendant has failed to
establish prejudice. Mathias v. Superintendent Frackville SCI, 876 F.3d 462, 477
(3d Cir. 2017) (quoting United States v. Lilly, 536 F.3d 190, 196 (3d Cir. 2008)).
Here, Folk has failed to show prejudice; i.e., he has not demonstrated that
but for appointed counsel’s alleged ineffectiveness in failing to raise claims of
selective and vindictive prosecution, there is a “reasonable probability” that the
result of his trial “would have been different.” Shotts, 724 F.3d at 375 (quoting
Strickland, 466 U.S. at 694). That is because his underlying claims of selective
and vindictive prosecution are meritless.
To make out a claim for unconstitutional selective prosecution, a defendant
“must ‘provide evidence that persons similarly situated have not been prosecuted’
and that ‘the decision to prosecute was made on the basis of an unjustifiable
standard, such as race, religion, or some other arbitrary factor.’” United States v.
18

Case l:ll-cr-00292-JEJ Document 177 Filed 02/16/18 Page 19 of 24

Taylor, 686 F.3d 182, 197 (3d Cir. 2012) (quoting United States v. Schoolcraft,
879 F.2d 64, 67 (3d Cir. 1989)). The defendant, who bears the burden of proof
on such claims, must establish both elements “with clear evidence sufficient to
overcome the presumption of regularity that attaches to decisions to prosecute.”
Id. (citation and internal quotation marks omitted).
In this case, Folk asserts that Brandon Beatty and Darren McMillan were
similarly situated but were not prosecuted. Folk, however, has failed to make
even a prima facie showing of the second element of selective prosecution. That
is, Folk has not explained, let alone provided “clear evidence” of, how the
decision to prosecute him but not Beatty and McMillan was based on an
unjustifiable standard like “race, religion, or some other arbitrary factor.” Taylor,
686 F.3d at 197 (citations omitted). Consequently, Folk’s selective prosecution
claim is without merit, and raising such a claim would have had no effect on the
trial proceedings.
Folk also contends that his appointed counsel should have raised a
vindictive prosecution claim. A defendant claiming vindictive prosecution bears
the burden of proof and must show that the United States Attorney penalized him
for “invoking legally protected rights” rather than simply prosecuted him “based
on the usual determinative factors.” Schoolcraft, 879 F.2d at 67-68 (citations
omitted).
19

Case l:ll-cr-00292-JEJ Document 177 Filed 02/16/18 Page 20 of 24

Folk’s vindictive prosecution argument is difficult, if not impossible, to
follow. (See, e.g., Doc. 163 at 17). He appears to argue that the superseding
indictment, which included additional charges, was obtained vindictively by the
government. But Folk does not explain what legally protected right he invoked
that caused the allegedly improper retaliation from the United States Attorney.
He also fails to demonstrate why the federal prosecutor’s actions were vindictive
and not simply based on the usual determinative factors. Thus, because Folk fails
to even plead a vindictive prosecution claim, to say nothing of proving it, he has
fallen far short of demonstrating that not raising this claim caused him prejudice.
Folk has not established prejudice under Strickland's second prong for
either of his ineffective-assistance-of-counsel claims. His sixth ground for relief,
therefore, must be denied.
7. Failure to Grant Medical Continuance
Folk’s final additional ground for relief appears to contend that the trial
court erred by not granting Folk a medical continuance. (Doc. 163 at 18-19).
Folk points to a pro se post-trial document (Doc. 92) he filed in which he claimed
that his medical conditions required a trial continuance, and that it was a due
process violation to deny the continuance. As with most of his other claims,
however, Folk procedurally defaulted on this claim when he did not raise it on

20

Case l:ll-cr-00292-JEJ Document 177 Filed 02/16/18 Page 21 of 24

direct appeal. And, because he has failed to establish cause or prejudice to
excuse his default, this claim must be denied. Massaro, 538 U.S. at 504.
C. Folk’s Additional Motions to Amend
While Folk’s initial motion to “amend under 15(a)” was under
consideration, he filed two additional motions to amend his 2255 motion. (Docs.
165, 169). We will briefly address each of these motions to amend and explain
why they must be denied.
The first additional motion to amend is titled “Motion [for] Leave [to]
Amend Under 15(c) Relating Back to Second Filing Under 15(c)(1)(B) In
Regards to Original 15(a) 28 U.S.C. [§] 2255(f)(1).” (Doc. 165). The second is
titled “Motion [for] Leave [to] Amend Fourth Petition Under 15(c)(1)(B)
Relating Back to Third Petition Under 15(c) and Doc. 151 In Regards to Original
Doc. 163 15(a) 28 U.S.C. [§] 2255(f)(1).” (Doc. 169). The titles of these
motions demonstrate Folk’s misconceptions about amending 2255 motions and
relation back under Federal Rule of Civil Procedure 15(c).
Folk seems to believe that so long as his additional, out-of-time proposed
amendments relate back to a previous motion to amend, they can properly amend
his initial 2255 motion and be considered timely. But that is not how relation
back works. In order for an amendment to relate back to an original pleading and
thus be considered timely, the amendment must assert “a claim . . . that arose out
21

Case l:ll-cr-00292-JEJ Document 177 Filed 02/16/18 Page 22 of 24

of the conduct, transaction, or occurrence set out—or attempted to be set out—in
the original pleading[.]” Fed. R. Civ. P. 15(c)(1)(B).
As explained above, we have determined what claims were timely raised
under Section 2255 and therefore constitute the original pleading (hereinafter the
“original 2255 motion”). Those claims are the Johnson-based claim and the
seven additional grounds for relief comprising Folk’s motion to “amend under
15(a).” These eight grounds for relief were raised within the one-year statute of
limitations provided in Section 2255(f), and thus represent the baseline for any
out-of-time motion to amend that seeks to assert new claims for relief.
If Folk desires to further amend his original 2255 motion to add new
claims, those new claims must relate back to the claims in the original 2255
motion or else they will be time-barred by Section 2255(f). See Mayle v. Felix,
545 U.S. 644, 662-63 (2005). In other words, to avoid being time-barred, any
new claims raised in Folk’s additional motions to amend must arise from same
“conduct, transaction, or occurrence” or be “tied to a common core of operative
facts” as those in his original 2255 motion. See id. at 662-64.
We turn to Folk’s first additional motion to amend. In this motion, he
raises two new grounds for relief: (1) ineffective assistance of counsel for failing
to request jury instructions on constructive possession and a lesser-included
offense of simple possession, and (2) a challenge to his sentence seemingly based
22

Case l:ll-cr-00292-JEJ Document 177 Filed 02/16/18 Page 23 of 24

on the factors found in 18 U.S.C. § 3553(a). (Doc. 165 at 2-8). Neither of these
claims meets the requirements for relation back. They are entirely distinct and
novel grounds for relief unrelated in any way to the claims or operative facts of
his original 2255 motion. Consequently, this motion to amend will be denied.
Folk’s second additional motion to amend fares no better. In this motion,
Folk raises five new grounds for relief: (1) ineffective assistance of counsel for
failing to challenge Folk’s career-offender status at sentencing and on direct
appeal under then-relevant Third Circuit case law; (2) ineffective assistance of
counsel for “not challenging [that Folk] was entitled to mandatory 15 years
minimum,” a claim in which Folk appears to misunderstand that a mandatory
minimum is simply the lowest possible sentence he could receive upon
conviction rather than the sentence he must receive; (3) ineffective assistance of
counsel for failing to object to, and to appeal, allegedly prejudicial prosecutorial
closing remarks; (4) ineffective assistance of counsel for failing to move to
suppress evidence that was obtained from an allegedly unlawful search of his car
and house; and (5) ineffective assistance of counsel for failing to challenge the
quantity of cocaine base at trial.
Once again, none of these claims meets the requirements for relation back.
Each new claim raised in Folk’s second additional motion to amend is wholly
distinct from the claims, and operative facts, raised in his original 2255 motion.
23

Case l:ll-cr-00292-JEJ Document 177 Filed 02/16/18 Page 24 of 24

Consequently, these five claims are time-barred under Section 2255(f), and this
motion to amend must also be denied.
D. Motions for Hearing; Motion to Appoint Counsel
In light of the above discussion, we will deny Folk’s motions for an
evidentiary hearing, (Docs. 168, 171). None of the claims raised in Folk’s 2255
motion, or any other motion discussed above, requires an evidentiary hearing.
For the same reasons, we will also deny Folk’s motion (Doc. 170) to appoint
counsel.
III.

CONCLUSION
For the foregoing reasons, we will grant Folk’s October 5, 2016 motion to

“amend under 15(a),” (Doc. 163), but will deny all of his other motions,
including his motion for relief under 28 U.S.C. § 2255. We will also deny a
certificate of appealability. An appropriate order will follow.

24

